<html>
<title> - THE UPPER BIG BRANCH MINE TRAGEDY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                   THE UPPER BIG BRANCH MINE TRAGEDY

=======================================================================

                             FIELD HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

               HEARING HELD IN BECKLEY, WV, MAY 24, 2010

                               __________

                           Serial No. 111-65

                               __________

      Printed for the use of the Committee on Education and Labor




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                ______

                  U.S. GOVERNMENT PRINTING OFFICE
56-355 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2010.....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania......................................    14
    Capito, Hon. Shelley Moore, a Representative in Congress from 
      the State of West Virginia.................................     9
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     6
        Prepared statement of....................................     7
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     5
        Table: ``Names of the 29 Miners Who Died at the Upper Big 
          Branch Mine on April 5, 2010...........................    67
        Letter, dated May 28, 2010, from Hon. Hilda L. Solis, 
          Secretary, U.S. Department of Labor....................    68
    Mollohan, Hon. Alan B., a Representative in Congress from the 
      State of West Virginia.....................................     9
        Prepared statement of....................................    10
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia.................................     7
        Prepared statement of....................................     8
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire.................................    14
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................    12
        Prepared statement of....................................    13

Statement of Witnesses:
    Cook, Charles E., uncle of Adam Morgan.......................    26
        Prepared statement of....................................    27
    Long, Leo, grandfather of Ronald Lee Maynor..................    66
    Manchin, Hon. Joe III, Governor, State of West Virginia......    15
        Prepared statement of....................................    18
    Morgan, Steve, father of Adam Morgan.........................    24
        Prepared statement of....................................    25
    Mullins, Clay, brother of Rex Mullins........................    29
        Prepared statement of....................................    31
    Peters, Alice, mother-in-law of Edward Dean Jones............    28
        Prepared statement of....................................    28
    Quarles, Gary, father of Gary Wayne Quarles..................    21
        Prepared statement of....................................    23
    Rockefeller, Hon. John D. IV, a U.S. Senator from the State 
      of West Virginia...........................................    11
    Solis, Hon. Hilda, Secretary, U.S. Department of Labor.......     2
    Stewart, Stanley ``Goose,'' miner, Upper Big Branch Mine.....    32
        Prepared statement of....................................    34
        Additional submission: ``Enhanced Underground Hourly Rate 
          Agreement and Covenant Not to Compete''................    50

 
                   THE UPPER BIG BRANCH MINE TRAGEDY

                              ----------                              


                          Monday, May 24, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 9:00 a.m., in room 
C, Beckley Raleigh County Convention Center, 200 Armory Drive, 
Beckley, West Virginia, Hon. George Miller, Chairman of the 
Committee, presiding.
    Committee Members Present: Chairman George Miller, and 
Representatives John Kline, Ranking Minority Member; Lynn 
Woolsey; Jason Altmire; and Carol Shea-Porter.
    Also Present: Senator John D. Rockefeller and 
Representatives Nick J. Rahall, Shelley Moore Capito, and Alan 
B. Mollohan.
    Also Present: The Honorable Hilda Solis, Secretary of 
Labor; Joe Main, Assistant Secretary for Mine Safety and 
Health; and Brian Kennedy, Assistant Secretary, Office of 
Congressional and Intergovernmental Affairs.
    Staff Present: Aaron Albright, Press Secretary; Jody 
Calemine, General Counsel; Lynn Dondis, Labor Counsel, 
Subcommittee on Workforce Protections; Richard Miller, Senior 
Labor Policy Advisor; Revae Moran, Detailee Labor; Meredith 
Regine, Junior Legislative Associate, Labor; Barrett Karr, 
Minority Staff Director; Loren Sweatt, Minority Professional 
Staff Member.
    Chairman Miller. Good morning. I'm Congressman George 
Miller and I want to just make a statement before we begin this 
hearing, a very important hearing. I'd like to recognize a 
special guest, and I'm very pleased that she has taken her time 
to join us today to listen to the families. And that is 
Secretary of Labor, Hilda Solis, who is sitting along over 
here. Hilda, Secretary Solis--we've known one another a long 
time.
    Secretary Solis served as a Member of Congress from 2001 to 
2009 and she was confirmed as Secretary of Labor in February of 
2009. She traveled here from Washington in order to hear 
firsthand the testimony of the family members touched by the 
Upper Big Branch tragedy. And again, I want to thank her for 
being here and she was here right after the tragedy onsite with 
the members of her Department, and we certainly appreciate you 
being here then also, Hilda, and if you would like to take a 
couple of minutes for the purpose of making remarks before we 
start the hearing, you're recognized.
    Secretary Solis. Thank you very much, Chairman Miller. I 
want to also acknowledge Senator Rockefeller, who is here in 
the delegation here from West Virginia, but more importantly, 
the Committee on Labor and Education for being here and, of 
course, obviously, the families. I wish we were here under 
different circumstances; however, we do need to begin our 
discussion. I just want to thank you, Governor, for also being 
here with us.
    Let me first express my deepest condolences to the families 
once again, friends and co-workers of the twenty-nine miners 
who perished in the Upper Big Branch mine and the surviving 
miners. Our prayers and our thoughts are with you and your 
families. As the President said, we owe them more than prayers; 
we owe them action and we owe them accountability. They ought 
to know that behind them there's a company that's doing what it 
takes to protect them and a government that is looking out for 
their safety.
    At 3:02 p.m. on April 5th, 2010, an explosion occurred at 
the Upper Big Branch Mine. I had the opportunity to watch the 
mine rescue teams and MSHA personnel coordinating their 
response and the search for the survivors. I traveled to West 
Virginia then because I knew and I felt it was my duty to make 
sure that you knew that the Department of Labor was doing 
everything in our power to get to your loved ones and to get 
them out of the mine and back at home.
    I had the honor and privilege of meeting some of you and 
being with you as you waited for news about your loved ones. 
You showed an unbelievable level of courage and composure even 
when you knew you were facing the most difficult odds. I've 
held those conversations very close to me since then. The 
mother praying for the safe return of her son. The grandfather 
who himself is suffering from black lung, desperate for 
information about his grandson. And the wives and children 
agonizing over what they can do to ease the sufferers in pain. 
Tragically, we later learned that all twenty-nine men lost 
their lives, but we can all honor them by ensuring that justice 
is served on their behalf, and that an accident of this 
magnitude never happens again.
    Shortly after the explosion occurred, I briefed the 
President, along with the leadership of MSHA, on the explosion 
and our response. He was very clear in his direction to us. 
First he asked us to maintain a level of transparency in our 
investigation. Secondly, he told us to provide regular updates 
to the family members. And finally, he instructed us to take no 
action to interfere with any ongoing criminal investigation.
    The Mine Safety and Health Administration led by my very 
capable Assistant Secretary Joe Main, who is with me, is 
conducting a thorough and comprehensive investigation into what 
caused the explosion on that day. MSHA also is conducting a 
thorough physical investigation of the mine and will hold a 
number of public meetings. MSHA's process will allow for 
unprecedented public participation, enabling members of the 
public to offer their insights into the causes of the 
explosion.
    If you have something to say, you will have an opportunity 
to say it. Our process is designed so we can learn the truth 
regarding what happened at Upper Big Branch and determine what 
is needed to enhance protections for mining safety.
    I'm grateful to Chairman Miller and the Committee and all 
the Representatives here for having held this hearing today for 
us and the families. I look forward to working with members of 
the Committee to strengthen our mine safety and health laws. I 
want to thank Governor Joe Manchin and the entire West Virginia 
delegation for their leadership and commitment to the mining 
community and the people of West Virginia.
    Again, I'd like to especially thank the families for their 
courage and those of you that are here to testify today before 
this Committee. Thank you for allowing me the opportunity to 
speak, and I thank you for agreeing to be here to speak on 
behalf of your husbands, your fathers, your sons, your 
brothers, your uncles, and your friends. We take every incident 
that results in injury or loss of life seriously and 
personally, and I personally make a commitment that we will do 
everything in our power to see that we resolve this issue and 
that it doesn't happen again. Thank you.
    Chairman Miller. Thank you, Madam Secretary. A quorum being 
present, the Committee will come to order. And I want to thank 
at the outset all my colleagues and certainly all of our 
witnesses today for being here. We appreciate the effort and we 
know how difficult it is. We're going to begin with opening 
statements by members of the Committee and the West Virginia 
delegation, so it's going to take us a little bit of time to 
get underway here, but we'll try to keep it short. It's 
something a politician says at the outset of every speech.
    As I said, good morning. I'd like to welcome everyone to 
today's hearing on the Upper Big Branch Mine tragedy. The 
Education and Labor Committee has traveled to Beckley to hear 
from families who are grieving and to look for the answers to 
our nation's most devastating mine tragedy in forty years.
    Just a few weeks ago, Americans were once again transfixed 
on the unfolding tragedy of the coal mine. While our rescuers 
worked heroically to find miners who we all hoped would still 
be alive, our nation hoped and prayed that early reports of 
four unaccounted miners indicated that there might be some 
survivors. Sadly, these hopes faded. Twenty-nine coal miners 
died that day. More importantly, this community lost husbands, 
fathers, sons, and best friends.
    On behalf of all my colleagues, I want to express our 
deepest sympathies to you and your families. Our best thoughts 
and prayers continue to be with you and your communities who 
have suffered this big loss. I know that your testimony today 
will be painful for you to deliver. Nevertheless, your 
testimony is critical for us to hear. I thank you very much for 
being here to participate in today's hearing.
    I would like to recognize all the brave miners involved in 
the rescue effort. These men and women worked around the clock, 
day after day. You, too, have the appreciation of our nation 
for your selfless efforts. I'd like to extend our gratitude to 
Governor Joe Manchin, Congressman Nick Rahall, and the rest of 
the West Virginia delegation that Nick will be introducing in a 
minute, all of whom were on the ground at that time helping 
families during the rescue efforts. Secretary Hilda Solis, who 
has joined us today, she was on the ground and met with miners 
and their families during this same ordeal. And I'm also 
grateful for the participation of all the West Virginia 
delegation helping us to put this hearing together. They 
provided valuable support to make sure that the lessons from 
these tragedies are not forgotten.
    I want you to know that we're all working together on 
legislation to make something--to try to make sure something 
like this doesn't happen again. Today we'll hear from you, the 
panel of family members, about how this tragedy has affected 
you.
    While the cause of this tragedy remains under 
investigation, the hazards miners face underground are not a 
mystery. We know how coal dust can explode like gun powder when 
ignited by methane. We understand the disastrous results when 
miners operate at the margins of safety in order to put more 
coal on the belt. We know what happens when workers' voices are 
silenced by fear of retaliation for speaking out on safety 
problems that they see and experience. And we know the 
consequences for safety when operators game the system in order 
to escape much tougher safety oversight. What happens is that 
miners die.
    Despite these truths, I am sure that many are skeptical 
that elected officials have the willingness to do anything 
about it. There is a frustration that as attention to the 
tragedy fades, mine owners simply will return to business as 
usual. There's a frustration that no one will be held 
accountable for the deaths of so many loved ones. The real 
safety reforms will fall by the wayside again. I share this 
concern. I've seen it happen before. But we cannot succumb to 
defeatism and cynicism when it comes to the lives of our fellow 
human beings, and I will not.
    This Committee has heard from many families over the years 
who have suffered great loss, as you have. And I made a promise 
to them and I cannot forget that promise. I made a pledge to 
the families at Sago, Aracoma, Alma, Darby, and Crandall Canyon 
in Ogden, Utah that we would do everything in our power to 
uncover the cause of these tragedies, to hold responsible 
parties accountable, and to prevent miners from suffering a 
similar fate. And I extend that same promise to the families of 
Upper Big Branch.
    Your families paid the ultimate price for a job our nation 
depends upon. Losing a family member to this kind of tragedy 
can fill one with a sense of powerlessness; however, I have 
found in the face of overwhelming tragedies, families display 
incredible strength and determination.
    It was the coal miners' families that helped to provide the 
final push to give miners a fighting chance after the last 
tragedies of Sago and those mines. It was the coal miners' 
families that got the legislature to pass the MINER Act. As a 
result of that, we're looking more at what happened after the 
accident. Mminers now have at least 96 hours of breathable air 
stockpiled; lifelines and tracking communication systems are 
being installed; and mine rescue teams are properly trained, 
equipped, and ready to respond.
    While this is a significant step forward, I felt that we 
missed an opportunity to do more to protect the health and 
safety of our nation's miners. Every day miners show up for 
their shift knowing that there's a chance that they may not 
return to their families. Miners for generations have lived 
with this fear. But I firmly believe there are things that we 
can do to ensure every miner who goes to work is able to return 
home safety to their families at the end of their shift. 
Congress has an obligation to make it so, and we will.
    And I want to again thank you all for coming. I'd like now 
to recognize the Senior Republican Member of the Committee, 
Congressman John Kline from Minnesota, with the purpose of an 
opening statement.
    [The statement of Chairman Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning. I would like to welcome everyone to today's hearing 
on the Upper Big Branch Mine tragedy. The Education and Labor Committee 
has traveled to Beckley, West Virginia to hear from families who are 
grieving and looking for answers to our nation's most devastating mine 
tragedy in forty years.
    Just a few weeks ago, Americans were once again transfixed on an 
unfolding tragedy at a coal mine, while rescuers worked heroically to 
find miners who we all hoped were still alive. On April 5, a massive 
explosion on a scale that is nearly incomprehensible ripped through the 
Upper Big Branch Mine.
    Our nation hoped and prayed that early reports of four unaccounted 
miners indicated that there might be survivors. But, sadly, these hopes 
faded. Twenty-nine coal miners died that day. More importantly, this 
community lost husbands, fathers, sons, and best friends.
    On behalf of all of my colleagues, I want to express our deepest 
sympathies to each of you and your families. Our thoughts continue to 
be with you and your communities who have suffered such a big loss.
    I know your testimony today will be painful for you to deliver. 
Nevertheless, your testimony is critical for us to hear. I thank you 
very much for agreeing to participate in today's hearing.
    I would also like to recognize all of the brave miners involved in 
the rescue effort. These men and women worked around the clock, day 
after day. You, too, have the appreciation of this nation for your 
selfless efforts.
    I would also like to extend our gratitude to Governor Joe Manchin 
and Congressman Nick Rahall, who were on the ground helping families 
and miners during the rescue efforts.
    Secretary Hilda Solis also joins us today. She was also on the 
ground and met with miners and their families during this ordeal.
    I am also grateful for the participation of other members of the 
West Virginia delegation today -Congresswoman Shelley Moore Capito, 
Congressman Alan Mollohan, and Senator Jay Rockefeller. The West 
Virginia delegation has provided invaluable support to make sure that 
lessons from this tragedy are not forgotten.
    I want you to know that we are all working together on legislation 
to make sure something like this doesn't happen again.
    Today we will hear from a panel of family members about how this 
tragedy has affected them.
    While the cause of this tragedy remains under investigation, the 
hazards miners face while underground are not a mystery.
    We know how coal dust can explode like gunpowder when ignited by 
methane. We understand the disastrous results when a mine owner 
operates on the margins of safety in order to put more coal on the 
belt. We know what happens when workers' voices are silenced by fear of 
retaliation for speaking out on safety problems they see. And, we know 
the consequences for safety when an operator games the system in order 
to escape much tougher safety oversight.
    Miners die. That's what happens.
    Despite these truths, I am sure that many are skeptical that 
elected officials have the willingness to do anything about it. There 
is frustration that as attention to this tragedy fades, mine operators 
will simply return to business as usual. That no one will be held 
accountable for the deaths of so many loved ones, and real safety 
reforms will fall by the wayside again.
    I share this concern. I've seen it happen before.
    But we cannot succumb to defeatism and cynicism when it comes to 
the lives of our fellow human beings. I will not.
    This committee has heard from too many families over the years who 
have suffered a great loss, as you have. I made a promise to them and I 
cannot forget that promise.
    I made a pledge to the families of Sago, Aracoma Alma, Darby and 
Crandall Canyon that we would do everything in our power to uncover the 
cause of those tragedies, to hold responsible parties accountable, and 
to prevent other miners from suffering a similar fate.
    I extend this same promise to all the families of Upper Big Branch. 
Your families paid the ultimate price for a job our nation depends on.
    Losing a family member to a senseless tragedy could fill you with a 
sense of powerlessness. However, I have found that in the face of 
overwhelming tragedy, families display incredible strength and 
determination.
    Coal miners' families helped to provide the final push to give 
miners a fighting chance after an emergency. As a result, mines must 
have at least 96 hours of breathable air stockpiled, lifelines, 
tracking and communications systems installed, and that mine rescue 
teams be properly trained, equipped and ready to respond. While this 
was a significant step forward, I felt that we missed an opportunity to 
do more to protect the health and safety of our nation's miners.
    Every day, miners show up for their shift knowing that there is a 
chance they may not return to their families. Miners for generations 
have lived with this fear.
    But I firmly believe that there are things we can do to ensure that 
every miner who goes to work is be able to return home safely to their 
families at the end of their shift. Congress has an obligation to make 
sure that is the case.
    And we will.
    I thank you all for coming today and look forward to your 
testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman. I want to thank also 
the Governor for being here and certainly all the witnesses. 
I'm pleased to see Secretary Solis, Assistant Secretary Main, 
and the members of the community and the families for being 
here today and for being so welcoming to us.
    This hearing is a somber occasion, but an important one. 
The April 5th explosion of the Upper Big Branch mine stole the 
lives of 29 miners and forever changed the lives of their 
families, friends, co-workers, and communities. Today's hearing 
provides us and the public a forum to hear directly from 
survivors of this tragedy, the family members who lost loved 
ones, and the leaders helping them cope.
    The federal investigations are ongoing and congressional 
oversight has only just begun. There are still far too many 
questions and far too few answers. In Congress, our job is not 
only to write federal laws, but to exercise oversight of those 
laws and the agencies administering them. We have powerful 
investigative tools and a large bully pulpit from which to 
speak. With that comes a solemn responsibility to investigate 
carefully, thoroughly, responsibly, and openly.
    Chairman Miller and I have worked together, as have members 
of our staffs, in preparation for that investigation. Our goal 
is to examine mine safety laws, looking at how they have been 
implemented and whether they're being obeyed. What we will not 
do is undercut or impede the important investigations currently 
underway by MSHA and other federal authorities. Instead, our 
job is to look more broadly at the safety of underground coal 
mining.
    In time, I expect we will be discussing regulatory and 
legislative changes to strengthen mine safety by demanding step 
by step compliance with and enforcement of mine safety laws. 
That's not why we're here today. Today we're here for the 
families. You all are not here to listen to me, but I'm here to 
listen to you, and once again, I'd like to thank you for that 
opportunity and, Mr. Chairman, I give back.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller and let me also extend my thanks to 
Governor Manchin, the community surrounding Montcoal, and especially 
the family members who are welcoming us here today.
    This hearing is a somber occasion, but an important one. The April 
5th explosion at the Upper Big Branch mine stole the lives of 29 miners 
and forever changed the lives of their families, friends, coworkers, 
and communities. Today's hearing provides us and the public a forum to 
hear directly from survivors of this tragedy--the family members who 
lost loved ones and the leaders helping them cope.
    The federal investigations are ongoing, and congressional oversight 
has only just begun. There are still far too many questions and far too 
few answers.
    In Congress, our job is not only to write federal laws, but to 
exercise oversight of those laws and the agencies administering them. 
We have powerful investigative tools and a large bully pulpit from 
which to speak. With that comes a solemn responsibility to investigate 
carefully, thoroughly, responsibly, and openly.
    Chairman Miller and I have worked together--as have members of our 
staffs--in preparation for that investigation. Our goal is to examine 
mine safety laws, looking at how they have been implemented and whether 
they are being obeyed. What we will not do is undercut or impede the 
important investigations currently underway by MSHA and other federal 
authorities. Instead, our job is to look more broadly at the safety of 
underground coal mining.
    In time, I expect we will be discussing regulatory and legislative 
changes to strengthen mine safety by demanding steadfast compliance 
with--and enforcement of--mine safety laws.
    But that's not why we're here today.
    Today, we are here for the families. You all are not here to listen 
to me--I am here to listen to you, and once again, I'd like to thank 
you for that opportunity. I yield back.
                                 ______
                                 
    Chairman Miller. I thank the Gentleman. Without objection, 
the Committee is joined today by Congressman Rahall, 
Congresswoman Capito, Congressman Mollohan, and Senator 
Rockefeller. As they appreciatively welcome this Committee to 
the state, I would like to offer each of them an opportunity to 
have an opening statement and to submit any additional 
testimony that they would like to in written form. And with 
that I would like to recognize my colleague in the House, 
Chairman Nick Rahall.
    Mr. Rahall. Thank you, Chairman Miller. I appreciate you 
and Ranking Member Kline, members of the Committee and 
Subcommittee Chair Lynn Woolsey for being with us today. And I 
thank as well Congressman Mollohan and Congresswoman Capito for 
taking part in this hearing. I appreciate the Governor being 
here, Senator Rockefeller, and I know we have a representative 
from Senator Byrd's staff here as well. I thank Secretary Hilda 
Solis, a former member of our Natural Resources Committee, and 
find now that she once again has shown her concern for our coal 
miners' families and mine safety by being with us today.
    We'll be hearing today from family members and friends of 
the 29 miners lost in the tragic mine explosion on April 5th of 
this year in Massey Energy's Upper Big Branch mine, not far 
from where we sit. I'm grateful to each of you for giving voice 
to the men who cannot speak for themselves. I know that you are 
still grieving.
    We have many other family members in attendance as well 
that are not at the witness table and I know that this is going 
to be difficult, that you are under extreme pressures. But I 
assure you, by your speaking today, you are making a 
difference, you are making a difference for our future coal 
miners. You are reminding us that this is not just about better 
mine safety machines or more accurate measurements. And it is 
certainly not about making money. This is about human lives.
    Those 29 miners should not have perished in that mine and, 
for them and for all miners on the job today, I hope you will 
continue to keep speaking out. We must make every effort. We 
must go around every corner. We must turn every head in 
protecting our most valuable God-given resource, our coal 
miners.
    Chairman Miller and many Members here, certainly Governor 
Manchin, Senator Rockefeller, we've been through this process 
before, trying to enact mine safety improvements. Congressman 
Mollohan, Congresswoman Capito had disasters in their districts 
as well. And the one element of that effort that can make a 
difference beyond anything else is the tenacity that Chairman 
Miller referred to in his opening comments, the tenacity of the 
family members who are determined to see that something good 
comes of their insurmountable and immeasurable loss.
    It is a sad and infuriating reality that every piece of 
legislation ever passed that advanced mine safety has been 
written in the blood of coal miners. I thank each of you again 
for being here today. I thank our Governor and I will now 
recognize Congresswoman Shelley Moore Capito, in whose 
district, as we all know, the Sago disaster occurred several 
years back. Congresswoman Capito.
    [The statement of Mr. Rahall follows:]

   Prepared Statement of Hon. Nick J. Rahall II, a Representative in 
                Congress From the State of West Virginia

    Chairman Miller, Ranking Member Kline, Members of the Committee, I 
thank you for allowing me and my fellow members of West Virginia's 
Congressional Delegation to take part in this hearing today. I 
appreciate your coming to Beckley, to my District, to gain what I 
believe will prove to be valuable insight.
    I also thank Secretary Hilda Solis, a former member of the Natural 
Resources Committee, which I chair, for her presence here in Beckley, 
once again.
    We will hear, today, from family members and friends of the 29 
miners lost in a tragic mine explosion on April 5th of this year in 
Massey Energy's Upper Big Branch Mine, not far from here.
    I am grateful to each of you for giving voice to men who cannot 
speak for themselves. I know that you are still grieving. I know this 
is difficult, and that you are under extreme pressures. But I assure 
you, you are making a difference by speaking today.
    You are reminding all of us that this is not just about better mine 
safety machines or more accurate measurements. And it is certainly not 
about making money. This is about human lives. Those 29 miners should 
not have perished in that mine, and, for them, and for all miners on 
the job today, I hope you will keep speaking out.
    Chairman Miller and I have been through this process before of 
trying to enact mine safety improvements. And the one element of that 
effort that can make a difference, beyond anything else, is the 
tenacity of family members who are determined to see that some good 
comes of their immeasurable loss. It is a sad and infuriating reality 
that every piece of legislation ever passed to advance mine safety has 
been written in the blood of coal miners.
    I thank and welcome our Governor, Joe Manchin. Governor Manchin and 
I have been through too many of these kinds of tragedies together and 
he has worked hard to institute some impressive changes here in West 
Virginia that can help to inform and enlighten our efforts at the 
federal level.
    I feel confident that he agrees with me when I say the explosion at 
the Upper Big Branch Mine was a tragedy that never, ever should have 
occurred.
    We owe it to the families of those earnest, hard-working miners who 
perished in that mine to get to the bottom of it. We owe them 
accountability. And we owe them, and all mining families, our devoted 
energies to help prevent similar tragedies from occurring again in our 
nation's coalfields.
    I appreciate this Committee's starting that concerted effort here 
and now.
                                 ______
                                 
    Mrs. Capito. Thank you. I'd like to thank my colleagues. 
I'd like to thank each of them for coming to Beckley. Welcome 
to West Virginia to my colleagues and I'm glad we have a 
beautiful day for you to see that it is almost heaven, quite 
frankly, as we call it. To the families, thank you for your 
bravery for testifying today and for the strength that you 
bring to the table. I thank the Governor as well for being here 
and also for his steadfast support during that tragic week in 
April at the Upper Big Branch mine. I want to thank my 
colleagues as well and certainly the Secretary and Assistant 
Secretary.
    Quite frankly, I have a longer statement, but I said I'd 
submit that for the record. I just wanted to say that being a 
West Virginian, this accident has taken a tremendous toll on 
all of us. It has simply been devastating for us, most 
certainly more personally for those who we're going to hear 
from today.
    Many questions remain and we're not going to get those 
questions answered until the teams can actually re-enter the 
mine and find out exactly what happened, but some of the early 
descriptions of what happened down there when they say that the 
rails for the mantrips were twisted like pretzels and machinery 
tossed aside from the blast, there was obviously something 
horribly wrong.
    But I find it hard to believe after Sago in 2006 in my 
district that an accident of this magnitude could actually 
occur. So, you know, we passed legislation in response to Sago 
with your leadership and others to avoid an accident such as 
this from happening again, and here we are. This proves we must 
continue to work together to keep our miners safe and prevent 
this from happening again.
    I have numerous questions that I'd like to have answered, 
but I'd really rather listen to what our witnesses have to say 
today, so I will submit those questions for the record. But I 
just want you to know this is going to be difficult for you but 
I appreciate your willingness to come before us today. You will 
make a difference. Thank you.
    Mr. Rahall. Thank you, Congresswoman Capito. Joining us 
this morning from the first congressional district, your friend 
and mine, and a gentleman who called me every day wanting to 
know the status and how we were coming on our recovery efforts, 
is Congressman Alan Mollohan of the first district.
    Mr. Mollohan. Thank you, Chairman Rahall. It's an honor to 
join this panel. I want to thank the Chairman of the Committee 
for allowing me to do that, Chairman Miller. First of all to 
the family members, your testimony here today is brave and will 
be very, very useful and give us special insight as to what's 
happened here. And your knowing the day-to-day experiences of 
your loved ones as they went in and out of the mine, those 
added insights cannot be derived from any other source than 
from your testimony here today, so thank you for joining us. 
The tragedy that you and the community has experienced is 
really beyond belief.
    Senator Rockefeller, I am not surprised that you're here 
joining this House panel. It's extraordinary that you'd do that 
and it's an indication of your commitment to the health and 
safety of West Virginians and coal miners in particular and 
your dedication overall.
    Hilda Solis, thank you for the good work that you're doing. 
I had the honor to join Secretary Solis in the Federal Number 2 
mine up in my congressional district about a year ago, so she 
had early on in her service to the country, the Secretary of 
Labor had coal mining high on her list. She's been down 
underground and from that experience at least knows the 
environment of which we speak here today.
    Chairman Miller, thank you again for allowing me to join 
the hearing today and thank you for coming to West Virginia, 
for bringing your Committee to our state. There aren't very 
many coal mines in California, I understand one, and I was 
extraordinarily surprised to hear that there was one in your 
congressional district. But for more than 30 years, George 
Miller has been one of the mine workers' real champions. 
Whether you're an Oakland dock worker or an Indiana iron worker 
or a West Virginia coal miner, George Miller has always had 
your back. I think we heard that in his opening remarks, that 
commitment. In the dark days after Sago, it was George Miller 
who pledged his support for tougher mine safety laws and I know 
that he's angered and I know that he's pained by what happened 
at Upper Big Branch, and I know that his leadership will be 
crucial in the months ahead.
    The other great leader in mine safety in the House of 
Representatives here today, of course, is Congressman Nick 
Rahall. He knows more about the coal industry and has fought 
tirelessly for the safety and welfare of the coal miners than 
anybody else in Congress. He understands better than anyone, 
what we need to do to protect those men and women who go 
underground every single day.
    We don't know what went wrong at the Upper Big Branch but 
we'll be finding out. And once we do, Nick Rahall, Congressman 
Miller, Senator Rockefeller all will be making sure of two 
things. First, that we hold the people accountable; and 
secondly, that we make sure that what happened at Upper Big 
Branch never happens again. You'll probably never be able to 
guarantee a miner's safety anymore than we can guarantee any 
worker's safety, but that's the goal that we strive for. Nick 
Rahall and George Miller's leadership will bring us closer to 
that.
    Again, to the family members, thank you for coming this 
morning. The nation needs to hear from you and you're brave to 
be here this morning to share with us the special insights into 
this disaster. I had the honor to meet with several of you last 
month and it's a special strength to be here today to share 
with this Committee and the public your grief and your sorrow 
and your knowledge. As Congressman Rahall just said, you're 
making a difference today. Thank you.
    [The statement of Mr. Mollohan follows:]

   Prepared Statement of Hon. Alan B. Mollohan, a Representative in 
                Congress From the State of West Virginia

    Thank you, Mr. Chairman, for allowing me to join your hearing this 
morning.
    And thank you also for coming to West Virginia today, for bringing 
your committee to our state.
    There aren't very many coal mines in the chairman's district, but 
for more than 30 years, George Miller has been one of the mine worker's 
real champions.
    Whether you're an Oakland dock worker, an Indiana ironworker, or a 
West Virginia coal miner, George Miller has always had your back.
    In the dark days after Sago, George Miller pulled Nick Rahall and 
me together and pledged his support for tougher mine safety laws.
    And I know that he is angered and pained by what happened at Upper 
Big Branch, and I know that his leadership will be critical in the 
months ahead.
    The other great leader in mine safety is, of course, Congressman 
Nick Rahall. He knows more about the coal industry--and has fought 
harder for it--than anyone else in Congress.
    And he understands better than anyone what we need to do to protect 
those men and women who go underground every single day.
    We don't know what went wrong at Upper Big Branch. But we will find 
out. And once we do, Nick Rahall will make sure of two things:
    First, he will hold people accountable.
    And second, he will make sure that what happened at Upper Big 
Branch never happens again.
    We will probably never be able to guarantee a miner's safety, 
anymore than we can guarantee any worker's safety. But that is the goal 
that we strive towards. And Nick Rahall and George Miller's leadership 
will bring us closer to that goal.
    Finally--to the family members testifying: Thank you for coming 
this morning.
    I had the honor to meet with several of you last month. It takes a 
special strength to share with this committee and the public your grief 
and your sorrow.
    As Mr. Rahall just said, you are making a difference today. Thank 
you.
                                 ______
                                 
    Mr. Rahall. Thank you. Chairman Miller, it is now my honor 
to introduce an individual from the other body, as we call it, 
the United States Senate. It's not often that a United States 
Senator will join a House Member's Committee hearing, but we're 
honored today to have our junior Senator from West Virginia, an 
individual who was on the scene at the UBB site many times and 
is no stranger to mine disasters, either, Senator Jay 
Rockefeller.
    Senator Rockefeller. Thank you, Congressman, and I 
sincerely thank the Chairman, George Miller, a champion on all 
fronts to workers of all kinds, coal miners in particular. 
Hilda Solis, whose father worked in a battery acid factory out 
in California, has all kinds of health problems himself. She 
knows what goes on and she can extrapolate that experience into 
your experience, and you know we're all here sharing the grief 
that you feel.
    It's a very sensitive hearing today because I have an 
instinct to kind of want to talk about what we should do in 
terms of legislation, because that's just who I am. I want to 
make sure that this doesn't happen again, and I do believe that 
all mine accidents are preventable and I'll never waver from 
that opinion. And here you are, and it's hard.
    I think that during the course of some of the statements 
that you give and questions that we ask, you may feel stronger 
now than you did then and it may be hard to answer, and that's 
okay, totally okay. because you are the experts. We come here 
because you're the ones who sit around the kitchen table every 
evening when you get home and talk to your family members. Or 
sometimes people don't talk to their family members about what 
they do, because that's also in the nature of coal mining. They 
hold it inside of themselves, which makes it more painful, in a 
sense, at a hearing like this. But that's why you're so brave 
to be here.
    You're the experts. You're the ones that's been inside coal 
mines, many of you for decades, doing this work and you've seen 
it all. It always interests me that, you know, this hurts the 
nation, this tragedy, and yet at the same time I know that, you 
know, even in West Virginia, 98 percent of the people have 
never been underground, can't do it. You can if you're 
Governor, you can if you're a Senator, you can if you're a 
Cabinet Secretary, but otherwise, pretty much you can't. And so 
it's in a secret world that's filled with danger that you do 
your work, and it's up to us who do know what happens 
underground to make sure we do all we can to hold companies 
accountable for what they do, to make sure that equipment isn't 
tampered with, to make sure that your lives are protected, 
shielded and protected to the extent that we can do that.
    And then there's always the question of follow-up, you 
know, what is MSHA going to do? What are the state folks going 
to do? And I'm going to question Governor Manchin, I'm really 
proud of him, about how the state and federal government could 
cooperate better. Some do and I think we sometimes overlap and 
I don't think that's necessary, or maybe it is. We need to talk 
about that.
    There's so many safety things that we can do. We can put it 
into legislation and it will make you and future generations of 
your families who go into coal mining safer. But, you know, in 
essence we've come here today to honor you in your grief, 
respect you, to cherish you, and yet to learn from you. We're 
not the experts and you are, so this is our day to listen to 
you and I really look forward to your testimony. Thank you.
    Chairman Miller. I want to thank again all the members of 
the West Virginia delegation. Senator Rockefeller, thank you 
for being here and joining our Committee. I'd like to recognize 
three members of our Committee who have come here. First of 
all, our Subcommittee Chair, Lynn Woolsey, who does safety 
every day for America's workers. Lynn is my colleague from 
California.
    Ms. Woolsey. Right. And I have been underground. A couple 
months ago it occurred to me after several turns of chairing 
the Workforce Protection Subcommittee, I'd better get down, I'd 
better get underground in a mine so I'll have some idea of what 
we're talking about, what your experience would even be. And 
I'm so glad that I did, because I would probably not have been 
able to relate at all, I mean, other than tragically, to what 
happened. I want to thank you for coming here to testify.
    It was a tragic explosion last month at the Upper Big 
Branch mine, and we don't know what the cause of the explosion 
was yet, I mean, it hasn't been determined. But indications are 
that the blast could have been avoided if the operator had put 
miners' safety above production and profits. So you have to 
know that we're so honored and so humbled that you would come 
here and speak with us after losing loved ones, friends, 
brothers, sons, those that make such a difference in your 
lives, and this is such a difficult time.
    It's been truly a terrible year for miners, but none worse 
than your experience here at the Upper Big Branch mine. But so 
far in 2010, and this is May, forty miners have been killed in 
mine accidents, exceeding the total number of all of the year 
2009. This is absolutely unacceptable and know that every 
single person up here believes and knows that.
    The original Mine Act was passed some forty years ago and, 
you know, we know that health and safety has improved a bit, 
but it has not improved enough. This is the 21st Century, for 
heaven's sake, and we must do more. But we need your help and 
we're hoping that your valuable information about the 
conditions before the explosion will help us, because you know 
and have information about how the mine was operated, not just 
this mine, but other mines operated by Massey Energy.
    And your testimony today will assist us with what we need 
to do next to ensure that owners and operators are held 
accountable for the health and safety of their workers. I'm 
particularly concerned about what I've been hearing, that 
miners at Upper Big Branch felt they could not report unsafe 
conditions because they feared they would lose their jobs. 
Unfortunately, mine inspectors cannot be at the mines all the 
time and it is absolutely necessary that miners feel free to 
report violations.
    To do that, we need to strengthen the whistleblower 
provisions of the mine law. We have done that just recently 
with the newly introduced Protecting American Workers Act, the 
OSH Act, which revamped the whistleblower program in the 
Occupational Safety and Health Act. So everyone on this panel 
this morning, every one of you is appreciated. We know you are 
committed.
    Governor, we loved what you're doing from day one so that 
miners can go to work each and every day and come home safe to 
their families at night. No family member should stay home 
wondering if their loved one will be home with them that 
evening. So I look forward to your testimony and we promise we 
will be working to go forward to protect you. Thank you.
    [The statement of Ms. Woolsey follows:]

    Prepared Statement of Hon. Lynn C. Woolsey, a Representative in 
                 Congress From the State of California

    I want to thank you all for agreeing to testify today on the tragic 
explosion last month at the Upper Big Branch mine.
    Our thoughts are with you and the other family members who have 
lost loved ones at Upper Big Branch and at other mines.
    And thank you Governor Manchin for being here as well.
    While the cause of the explosion has not yet been determined, 
indications are that the blast could have been avoided altogether if 
Massey Energy had put miners' safety above production and profits.
    We are so honored that you who have lost fathers, sons, brothers 
and friends are willing to come forward at this very difficult time.
    This has been a terrible year for miners.
    So far in 2010, 40 miners have been killed, higher than mining 
fatalities in all of 2009.
    This is unacceptable.
    We now are in the 21st century, and we need solutions that will 
truly keep miners healthy and safe as they go about their work.
    You have valuable information to give us about the conditions of 
the mine before the explosion and about how Massey Energy treats its 
workers.
    And we want your advice on what we can do to ensure that owners and 
operators are held accountable for the health and safety of their 
workers.
    There is a lot to be done but one essential reform is to ensure 
that workers are free to report safety and health violations and 
without worrying that they will lose their jobs.
    From what I heard, miners at Upper Big Branch did not complain 
because they knew they would be fired if they did.
    That culture needs to change, and I would like to see mine 
legislation contain the same whistleblower provisions that are in the 
Protecting America's Workers Act, which reforms the Occupational and 
Safety Act.
    Again thank you so much for coming today, and I look forward to 
your testimony.
                                 ______
                                 
    Chairman Miller. Thank you. Now I'd like to recognize 
Congressman Jason Altmire from Pennsylvania, the Pittsburgh 
area. He's interested in coal mining and mine safety. Jason.
    Mr. Altmire. Thank you, Mr. Chairman. I just want to 
briefly say that we recognize, all of us up here, how 
incredibly difficult a day this is for you to be here, to tell 
your story about your family and your friends in the mine. And 
we don't take lightly the fact that you are in an incredibly 
unimaginable painful time in your life. And we want you to 
know, having Secretary Solis here, Governor Manchin, Senator 
Rockefeller, the entire West Virginia House delegation, members 
of this Committee, that we are here to hear from you, and we 
take very seriously what you have to say. And we are going to 
use the testimony that we hear today to hold accountable those 
who are responsible for this tragedy and to make sure that it 
will never happen again. That's the purpose of why we are here, 
we are here to hear from you, and we can't thank you enough for 
being here to join us and the pain that this has inflicted upon 
you and this entire community. We understand that this is a 
difficult time. So thank you, Mr. Chairman, for holding this 
hearing and thank you to the witnesses.
    Chairman Miller. I'd like to introduce Congresswoman Carol 
Shea-Porter from New Hampshire. She's a member of the Committee 
and she's very involved in all of the issues with worker 
safety.
    Ms. Shea-Porter. I'm from New Hampshire and we don't coal 
mine there, but I will say that we are so grateful to our 
fellow Americans who do this dangerous work for all of us. We 
in New Hampshire watched and prayed with you and we cried with 
you. And we admired your courage and we also were very moved by 
your sorrow. It's our obligation on this Committee to find out 
exactly what happened and we can't do that without you.
    So we're very grateful that you would come forward and tell 
your stories. We've heard these stories before. My heart breaks 
and my mind shouts no and I know every member of the Committee, 
and the Senator, and the Secretary of Labor, and the Governor, 
and everybody else gathered here has the same mission, to make 
sure that we're not back here or in some other hall in a couple 
of years hearing the same stories. It's our job to prevent it 
and I'm thanking you for telling us how.
    Chairman Miller. Thank you. With that, we'll move to our, 
to hear from our witnesses. Thank you for your patience during 
these opening statements, and I'd like to recognize Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. It is my distinct 
honor to thank once again and to welcome the Governor of our 
state, Joe Manchin. He and I have been through a couple of 
these tragedies in a couple of years in my district alone, and 
the Governor, along with our state legislature, has worked 
tirelessly to institute some impressive changes here in West 
Virginia, to inform and enlighten our efforts at the federal 
level.
    The Governor has served our state since the year '05, 
previously served as our Secretary of State from 2000 to '04. 
He comes from a family that's long dedicated to public service 
and he possesses a deep understanding of coal mining, what it 
means to our economy, what it means to our energy picture, and 
what it means to our state of West Virginia.
    He's had personal experience, having lost a loved one in 
previous disasters in this state and his insight into how these 
tragedies touch families is invaluable to our work here. He and 
I were together all week during this disaster at UBB and he 
certainly is a strong advocate for mine safety and the rights 
of our coal miners, and I certainly appreciate him being here 
today and welcome him.
    Governor Manchin. Congressman--I'm sorry.
    Chairman Miller. No, I was going to say, roughly what we're 
going to do here is, we're going to begin with the Governor and 
then we'll work our way down the line. A green light will go on 
when you begin testifying and then, after 4 minutes, an orange 
light will go on, and then a minute later, a red light. So if 
you could sum up your testimony at that time.
    But both to the Governor and to the members of this panel, 
we want you to testify in the manner you're most comfortable 
with and make sure you're able to tell us the things you think 
we should hear. So the lights are a little bit more guidance 
today than they might be in Washington, where we're fairly 
strict about it, because we want to make sure that we hear from 
you. Thank you very much. Governor.

         STATEMENT OF HON. JOE MANCHIN, III, GOVERNOR,
                     STATE OF WEST VIRGINIA

    Governor Manchin. Chairman Miller, thank you so much, and 
Ranking Member Kline; and Congressman Rahall, for your kind 
introduction; Congressman Mollohan; Congresswoman Capito; 
Senator Rockefeller; to all of the Members; and to Secretary 
Solis; and to Assistant Secretary Main. I'm honored to be here 
today with the families of these men who lost their lives in 
the Upper Big Branch mine, Mr. Stewart, and all the others here 
who represent the family members. And I think you know the 
commitment and dedication we all have and the love they have 
for the families.
    Since I learned of the terrible tragedy, my first priority 
has been to ensure that our miners are represented honorably 
and their families have the support and protection that they 
need during this difficult time. I've personally been through 
this with the loss of my uncle in 1968 at the Farmington Number 
9 mine explosion, along with a lot of my friends and classmates 
in school.
    It's important for me to make certain that those who do not 
know West Virginia miners and their families will come to 
understand the character and substance of these wonderful 
people who play such an important role in this great state and 
in our nation. When you hear the testimonies of the men and 
women sitting alongside of me today, and as you see the 
strength and courage on their faces, you're going to be 
inspired as I am, and you will better understand the heart and 
soul of West Virginia and her people.
    West Virginia has a rich history and mining is a very 
important part of that history. Coal from West Virginia has 
powered this country in times of prosperity, in times of 
depression, and in times of war. Mining coal is hard and 
challenging work and when it's not done properly, it's very, 
very dangerous as we know. However, in this day and age, we 
should be able to mine coal safely without risking the lives of 
our miners as they are the people we depend on to sustain our 
way of life.
    That is why, since the tragedy at the Upper Big Branch 
mine, my main objective has been to determine what occurred, to 
make certain it doesn't happen again, and determine whether 
there is intimidation or any other action at the Upper Big 
Branch mine that puts profits before safety. You can put a 
price on a ton of coal and I can tell you the price of every 
piece of machinery in that mine, but I cannot tell you the 
price of the miner, because he or she is priceless. West 
Virginia expects, we expect every employer in every field of 
work to prioritize safety ahead of everything else. The person 
who goes to work each morning to provide a living for 
themselves and their family should expect nothing less than to 
return home safe.
    Almost immediately after I learned of the accident at the 
Upper Big Branch mine, I appointed J.W. McAteer, Assistant 
Secretary of the Mine Safety and Health Administration under 
President Clinton, to head an independent investigation into 
the explosion. Mr. McAteer is a native of Fairmont, West 
Virginia, my home area, Marion County and Fairmont. He brings a 
wealth of experience to the table. He's devoted a considerable 
portion of his professional life to mine safety and health 
issues and he is an experienced investigator. At my request, 
Mr. McAteer led an independent blue ribbon panel in 2006 after 
the Sago and the Alma-Aracoma mine accidents in West Virginia. 
He has also assembled a team of independent experts to work 
alongside Director Ron Wooten and his team of state 
investigators from the West Virginia Office of Miners' Health, 
Safety and Training.
    Director Wooten and Mr. McAteer have been working closely 
with MSHA and we appreciate that cooperation and we'll continue 
to do so throughout this investigation. West Virginia deserves 
to know what happened at Upper Big Branch. We deserve to know 
why this tragedy occurred and whether it could have been 
prevented.
    There are questions we need answered. Why did serious 
safety violations repeatedly occur at Upper Big Branch? Were 
the miners concerned about their safety? Were miners threatened 
or intimidated from speaking out? If state or federal 
regulators knew that the mine was unsafe, why was it allowed to 
continue to operate?
    There's been much discussion about administrative and 
judicial procedures that can allow a mine to remain open in the 
face of significant safety violations that would otherwise 
warrant a closure order. We need to ask ourselves, ``Is 
bureaucracy getting in the way of safety?''
    I have asked Mr. McAteer's team and Director Wooten to 
answer these questions and many more. I've also asked them and 
other mine safety experts, including our State Board of Coal 
Mine Health and Safety, to recommend legal reforms. I will 
incorporate their proposals and some of my own into a 
comprehensive mine safety plan that will address several issues 
for West Virginia.
    One proposal that I think is critical is the establishment 
of a certified mine safety team in every mine. I envision teams 
of miners in each mine that are trained and certified to 
identify dangerous situations and work day in and day out at 
those mines. These miners should be empowered to make decisions 
and take actions and should be protected by law from threats, 
harassment, or intimidation.
    We also need to look at rock dusting standards. Just days 
after the Upper Big Branch explosion, I ordered Director Wooten 
to begin testing mines for compliance with an 80 percent total 
combustible content of rock dust standard. This has been 
recommended by the National Institute of Occupational Safety 
and Health reports. I believe West Virginia should mandate this 
standard.
    Some other proposals I'm considering include updating mine 
ventilation standards in our state code, enhancing criminal 
penalties for tampering with or altering safety equipment, 
furthering whistleblower protections, and incorporating more 
technology in the mines for accident prevention and rescue.
    In addition to specific reforms, we should reexamine our 
overall regulatory schemes, both state and federal. For 
example, I've been told by representatives of one coal operator 
that the United States Bureau of Mines, which was closed in the 
mid-nineties, had a program staffed with highly qualified 
personnel that reviewed and approved design plans for all new 
mines. I was told that there has not been as significant a 
level of engineering and review of new mine plans since the 
Bureau closed. Perhaps this is an area where we need to 
improve.
    Corporate governance is another issue the state or federal 
government should address. No one in a corporate or business 
structure from the top to the bottom should be protected or 
untouchable under the law if the corporation or business fails 
to make safety a priority or fails to empower workers to make 
the workplace as safe as possible.
    With that being said, we have many mining companies in West 
Virginia and around this country with excellent safety records 
that put the safety of their miners ahead of everything else. I 
want to commend those operators for focusing on safety and I 
encourage others to follow their lead.
    We need to look at what these companies are doing that is 
above and beyond what is legally required, and ask ourselves 
whether those standards should be required of the coal mines. 
If a company can focus on safety ahead of profits and still 
compete in a global marketplace, every company can build a 
successful business model around the culture of that today.
    I want to challenge the coal industry to set a new bar for 
workplace safety. That is why I ordered, in the days following 
the Upper Big Branch, a day of honor and mourning for our 
fallen miners, and asked coal operators to cease production for 
one whole day to focus on safety. I asked every underground 
mine operator and miner to go to work and commit for one day to 
focus completely on making their workplace as safe as possible. 
I felt this was an appropriate way to honor the miners at Upper 
Big Branch, and a way to give direction to the coal industry on 
where we need to go as a state and a nation.
    As we move forward and form new goals for mine safety, I 
will continue to make certain that the laws that are already on 
the books are stringently enforced. I've already ordered 
increased coal mine inspections and stricter enforcement of 
coal mine health and safety laws in West Virginia. Just days 
after Upper Big Branch, I ordered the Office of Miners' Health, 
Safety and Training to immediately inspect every coal mine in 
the state of West Virginia. The worst offenders, those with the 
records of the most serious health and safety violations, were 
inspected within hours of my order.
    We've also established a 24-hour, 7-day-a-week industrial 
accident safety hotline, which allows callers to anonymously 
report problems in the workplace without fear or intimidation. 
The hotline has been up and running for a short time, but has 
already seen many, many results. I hope that it will encourage 
more workers to become involved in strengthening safety 
procedures from the front lines.
    In closing, I want to thank you for this opportunity to 
speak to the Committee about these important issues. I also 
want to thank the families for being strong during this 
difficult time. I know the values and I know the strength of 
each one of you and your families and I appreciate it very 
much. West Virginia is a beautiful state, as you can see, 
filled with proud, hardworking people who are supported by 
strong families and who never ask for anything other than an 
honest day's pay for an honest day's work.
    Mining is a way of life for many West Virginians. West 
Virginia miners, like their fathers and grandfathers who mined 
coal before them, have not only a strong commitment to provide 
a good living for their families, but also, which I think goes 
unnoticed or maybe not much known about, a patriotic pride that 
their work, their work, and the energy that they produce, has 
made this country what she is today. It's made her strong and 
free and continues to keep her strong and free. They're very 
proud of that.
    I want to thank you for the opportunity to speak out about 
what I see and we will talk in more depth, I'm sure, about the 
overlapping events that go on in so many areas. Thank you.
    [The statement of Governor Manchin follows:]

         Prepared Statement of Hon. Joe Manchin III, Governor,
                         State of West Virginia

    Secretary Solis and distinguished representatives, I am honored to 
be here today with the families of the men who lost their lives at the 
Upper Big Branch mine and with Mr. Stewart, a miner who worked at Upper 
Big Branch.
    Since I learned of this terrible tragedy, my first priority has 
been to ensure that our miners are represented honorably and that their 
families have the support and protection they need during this 
difficult time.
    I have personally been through this type of tragedy, losing my 
uncle and many friends in the 1968 Farmington No. 9 mine explosion.
    So, it is important to me to make certain that those who do not 
know West Virginia miners and their families will come to understand 
the character and substance of these wonderful people who play such an 
important role in this great state and in our nation.
    Today, and as you see the strength and courage on their faces, you 
will be inspired, as I was at Upper Big Branch, and you will better 
understand the heart and soul of West Virginia and her people.
    West Virginia has a rich history, and mining is a very important 
part of that history. Coal from West Virginia has powered this country 
through times of prosperity, times of depression and times of war.
    Mining coal is hard and challenging work, and when mining is not 
done correctly, it can be very dangerous. This we know for a fact. 
However, in this day and age, we should be able to mine coal safely 
without risking the lives of our miners--the very people we depend upon 
to sustain our way of life.
    That is why, since the tragedy at Upper Big Branch, my main 
objectives have been to: determine what occurred, make certain it does 
not happen again, and determine whether there was intimidation or any 
other action at Upper Big Branch that put profits ahead of safety.
    You can put a price on a ton of coal, and you can put a price on 
every piece of machinery in a coal mine, but you cannot put a price on 
the life of a human being; it is priceless. West Virginia expects 
employers to prioritize safety ahead of everything else. A person who 
goes to work each morning to provide a living for themselves and their 
family should expect nothing less than to return home safely.
    Almost immediately after I learned of the accident at Upper Big 
Branch, I appointed J. Davitt McAteer, assistant secretary for the Mine 
Safety and Health Administration under President Bill Clinton, to head 
an independent investigation into the explosion.
    Mr. McAteer, a native of West Virginia, brings a wealth of 
experience to the table. He has devoted a considerable portion of his 
professional life to mine health and safety issues and he is an 
experienced investigator. At my request, Mr. McAteer led an independent 
blue ribbon panel in 2006 to investigate the Sago and Aracoma mine 
accidents in West Virginia.
    Director Ron Wooten and his team of state investigators from the 
West Virginia Office of Miners' Health, Safety and Training. Director 
Wooten and Mr. McAteer have been working closely with MHSA and will 
continue to do so throughout this process.
    West Virginia deserves to know what happened at Upper Big Branch. 
We deserve to know why this tragedy occurred, and whether it could have 
been prevented.
    There are questions we need answered. Why did serious safety 
violations repeatedly occur at Upper Big Branch? Were the miners 
concerned about their safety? Were miners threatened or intimidated 
from speaking out? If state or federal regulators knew the mine was 
unsafe, why was it allowed to continue to operate?
    There has been much discussion about administrative and judicial 
procedures that can allow a mine to remain open in the face of 
significant safety violations that would otherwise warrant a closure 
order. We need to ask ourselves: Is bureaucracy getting in the way of 
safety?
    I have also asked them, and other mine safety experts, including 
our state Board of Coal Mine Health and Safety, to recommend legal 
reforms.
    I will incorporate their proposals, and some of my own, into a 
comprehensive mine safety plan that will address several issues for 
West Virginia.
    One proposal that I think is critical is the establishment of 
certified mine safety teams in every mine. I envision teams of miners 
in each mine that are trained and certified to identify dangerous 
situations. These miners should be empowered to make decisions and take 
actions, and should be protected by law from threats, harassment or 
intimidation.
    We also need to look at rock dusting standards. Just days after the 
Upper Big Branch explosion, I ordered Director Wooten to begin testing 
mines for compliance with an eighty percent total incombustible content 
rock dust standard, as recommended by a National Institute of 
Occupational Safety and Health report. I believe West Virginia should 
mandate this standard.
    Some other proposals I am considering include: updating ventilation 
safety standards in our state code; enhancing criminal penalties for 
tampering with or altering safety equipment; furthering whistle blower 
protections; and incorporating more technology in the mines for 
accident prevention and rescue.
    In addition to specific reforms, we should reexamine our overall 
regulatory schemes--both state and federal.
    For example, I have been told by representatives of one coal 
operator that the United States Bureau of Mines, which was closed in 
the mid-nineties, had a program staffed with highly qualified personnel 
that reviewed and approved design plans for all new mines. I was told 
that there has not been as significant a level of engineering review of 
new mining plans since the bureau closed. Perhaps this is an area we 
need to improve.
    Corporate governance is another issue the state or federal 
government should address. No one within a corporate or business 
structure, from top to bottom, should be protected or untouchable under 
the law if the corporation or business fails to make safety a priority 
or fails to empower workers to make the workplace as safe as possible.
    With that being said, we have many mining companies in West 
Virginia and in this country with excellent safety records that put the 
safety of their miners ahead of everything else. I want to commend 
those operators for focusing on safety and I encourage others to follow 
their lead.
    We need to look at what these companies are doing that is above and 
beyond what is legally required, and ask ourselves whether their 
standards should be required at every coal mine. If a company can focus 
on safety ahead of profits and still compete in a global marketplace, 
every company can build a successful business model around a culture of 
safety.
    I want to challenge the coal industry to set a new bar for 
workplace safety.
    That is why I ordered, in the days following Upper Big Branch, a 
day of honor and mourning for our fallen miners, and asked coal 
operators to cease production for one whole day, to focus on safety. I 
asked every underground mine operator and miner to go to work and 
commit to one day focused completely on making their workplace as safe 
as possible. I felt this was an appropriate way to honor the miners of 
Upper Big Branch, and a way to give direction to the coal industry on 
where we need to go as a state and a nation.
    As we move forward and form new goals for mine safety, I will 
continue to make certain that the laws that are already on the books 
are stringently enforced.
    I have already ordered increased coal mine inspections and stricter 
enforcement of coal mine health and safety laws in West Virginia. Just 
days after Upper Big Branch, I ordered the Office of Miners' Health, 
Safety and Training to immediately inspect every coal mine in the 
state. The worst offenders, those with a record of the most serious 
health and safety violations, were inspected within hours of my order.
    We have also established a twenty-four hour, seven days a week, 
industrial accident safety hotline, which allows callers to anonymously 
report problems in the workplace without fear of retribution. The 
hotline has been up and running for a short time, but is already seeing 
results. I hope that it will encourage more workers to become involved 
in strengthening safety procedures from the front lines.
    In closing, I want to thank you for this opportunity to speak to 
the Committee about these important issues. I also want to thank the 
families for being strong during this difficult time.
    West Virginia is a beautiful state, filled with proud, hard-working 
people, who are supported by strong families, and who never ask for 
anything other than an honest day's pay for an honest day's work.
    Mining is a way of life for many West Virginians. West Virginia 
miners--like their fathers and grandfathers who mined coal before 
them--have not only a strong commitment to provide a good living for 
their families, but also a deep and patriotic pride that their work, 
and the energy they produce, has made and continues to make America 
strong and free.
    Thank you for the opportunity to speak today.
                                 ______
                                 
    Chairman Miller. Thank you, Governor. Congressman Rahall?
    Mr. Rahall. Thank you, Chairman Miller. Thank you, Governor 
Manchin. I'm going to introduce the six members of the panel 
all at the same time here. They will go right down the line and 
I will give a short bio of them right now.
    First will be Mr. Gary Quarles, who is the father of Gary 
Wayne Quarles. Gary Wayne was a 33-year-old long wall shear 
operator at Upper Big Branch Mine who lost his life in the 
explosion on April 5th. Mr. Quarles is also a coal miner and 
has worked in coal mines for 34 years. He is currently employed 
at the Parker Peerless mine, which is also operated by Massey 
Energy Corporation.
    The second one will be Mr. Steve Morgan. He is the father 
of Adam Morgan. Adam was just 21 years old when he was taken 
from his family in the Upper Big Branch explosion. He was an 
apprentice. He was just starting out. Steve Morgan has worked 
in the mining industry for 29 years and is currently employed 
at the Pinnacle mine in Pineville, West Virginia, but I am 
told, he has not been back underground since the explosion.
    Our third witness will be Mr. Eddie Cook. Eddie is Adam 
Morgan's uncle. Mr. Cook has substantial experience in coal 
mining, having been a coal miner for over 30 years. He's 
currently employed at the Pinnacle Mining Company's mine which 
is operated under Cleveland Cliffs.
    Our fourth witness is Alice Peters. She is the mother-in-
law of Edward Dean Jones. Jones, age 50, was an assistant mine 
foreman who lost his life in the Upper Big Branch mine tragedy.
    Our fifth witness is Mr. Clay Mullins. He is the brother of 
Rex Mullins. Rex was a 50-year-old long wall end gate operator 
at the UBB mine. Clay Mullins has worked in mining for 32 years 
and formerly worked at the Upper Big Branch mine. Mr. Mullins 
is currently employed at Speed Mining in Cabin Creek, West 
Virginia.
    And our sixth witness is Stanley ``Goose'' Stewart, who 
formerly worked in the coal mine industry for 34 years and 
spent the last 15 years working in the UBB mine until the date 
of the explosion. Mr. Stewart worked the second shift at UBB 
and was close friends with many of those that were killed that 
day.
    I thank you all for your courage to be here to talk with us 
and I know that we have other family members in the audience as 
well, and hopefully we will give them a chance later to speak 
if they should so desire. We will start now with Mr. Quarles.

              STATEMENT OF GARY QUARLES, FATHER OF
                       GARY WAYNE QUARLES

    Mr. Quarles. Thank you. My name is Gary Quarles. I am the 
father of Gary Wayne Quarles who was killed as the result of an 
explosion at the Upper Big Branch Mine on April 5th, 2010. Gary 
Wayne was my only son and my best friend. He has two children. 
We shared numerous good times together, including hunting and 
fishing. I live in Naoma, West Virginia, and Gary Wayne lived 
in a double-wide home immediately adjacent to my home on my 
property.
    I am also a coal miner and have worked in the mines for 34 
years. I worked in union mines for 23 years and I've worked in 
non-union mines the rest of the time. Other than working for 2 
years in a saw mill, I've worked my entire adult life in the 
coal mining business.
    I have experience in all aspects of coal mining, including 
being a roof builder, a long wall operator, and driving a 
shuttle car. My son and I actually worked together at several 
mines. I am presently employed by Massey at the Parker Peerless 
mine, but I am off work because of trauma I have suffered as a 
result of losing my son.
    Safety inspections were much different in the union mines 
I've worked at than most of the non-union Massey mines. When an 
MSHA inspector comes onto a Massey mine's property, the code 
word goes out, ``We've got a man on the property.'' Those words 
are radioed from the guard gate and relayed to all working 
operations in the mine. The mine superintendent and foreman 
communicate directly by phone and there are signals that 
require the foreman who is underground to answer the phone. 
This is one way the message is conveyed that an inspector is on 
the property. When the word goes out, all effort is made to 
correct any violations or direct the inspectors away from 
violations.
    When I worked at the union mines, workers at the mine would 
accompany the MSHA inspectors during their inspections. I was 
on the safety committee and members of the committee took turns 
going around with MSHA inspectors and pointing out areas of 
concern. Moreover, at the union mine I was able to refuse to 
work in unsafe conditions without fear of retaliation.
    When the MSHA inspector comes to a Massey mine, the only 
people accompanying him are Massey company people. No coal 
miner at the mines can point out areas of concern to the MSHA 
inspector. In fact, for a miner working for Massey, the feeling 
is, if a MSHA inspector fails to say anything about all these 
safety problems, what right do I have to say anything about 
them. And I definitely would be terminated or retaliated 
against if I said anything.
    MSHA inspectors at Massey do little to protect miners. 
Employees who work in the underground coal need the absolute 
right to address the MSHA inspectors directly and to tell them 
about any areas of concern they have without fear of 
retaliation. We absolutely look to MSHA for leadership, 
particularly on safety issues, but MSHA has let us down many 
times. The MSHA inspectors usually do their inspections during 
the day shift, but miners mine coal during many other shifts.
    MSHA needs to conduct inspections during the evening shifts 
and Saturdays in addition to the weekdays to ensure that they 
are there whenever coal is being mined. Having them only 
inspect mines during the day obviously creates opportunity for 
the mines to not comply with all safety requirements during the 
hours that they know the inspectors will not be around. When 
MSHA is not present, there is no thought of doing anything 
other than producing coal. The miners are not allowed to hang 
curtains or conduct any other safety operations if they would 
interfere with or delay the production of coal.
    In my experience, I believe the law could be strengthened 
to help protect the safety of miners in the following ways:
    <bullet> Have the inspectors conduct inspections during 
every shift when coal is being produced at the mine, not just 
the day shift.
    <bullet> Require inspectors to randomly select different 
miners to accompany them during their inspections so that the 
miners could tell the inspectors about their concerns without 
fear of retaliation.
    <bullet> Hold inspectors responsible for the safety of the 
miners. These men look at federal mine inspectors for 
leadership.
    <bullet> Do not allow any prior warnings of inspections. 
When an MSHA inspector comes onto a mine property to conduct an 
inspection, there should be a severe penalty for alerting 
anyone of the inspector's presence. A penalty that discourages 
anyone from providing such a warning. MSHA inspectors should be 
able to come unannounced and inspect mines at any time.
    The Upper Big Branch mine used to be a very safe mine, but 
something happened. During the last year, I understand that 
there were serious violations at the mine and many D orders 
written. This mine was clearly not safe and the result was 29 
miners died, including my son. He worked 14 years underground, 
was on the long wall for 8 years. Someone needs to be held 
responsible for these deaths and, more importantly, we need to 
change the laws or modify them to make sure this does not 
happen again.
    I ask the members of this Committee to undertake such a 
commitment to my family and the families of all of us who have 
lost their loved ones in this explosion to make sure that this 
never happens again. We have had enough tragedy in West 
Virginia in the coal mines. There should be no reason for this 
to continue. And I am asking you to pass laws to ensure that 
miners do not have to work in an unsafe place and that they can 
refuse to work if it is unsafe without the fear of being fired. 
Thank you.
    [The statement of Mr. Quarles follows:]

    Prepared Statement of Gary Quarles, Father of Gary Wayne Quarles

    My name is Gary Quarles. I am the father of Gary Wayne Quarles who 
was killed as a result of the explosion at the Upper Big Branch mine on 
April 5, 2010. Gary Wayne was my only son and my best friend. He has 
two children. We shared numerous good times together, including hunting 
and fishing. I live in Naoma, West Virginia and Gary Wayne lived in a 
double wide mobile home immediately adjacent to my home on my property.
    I also am a coal miner and have worked in the mines for 34 years. I 
worked in union mines for 23 years and have worked in non-union mines 
the rest of the time. Other than working for 2 years in a saw mill, I 
have worked my entire adult life in the coal mining business. I have 
experience in all aspects of coal mining, including being a roof 
bolter, a long wall operator, and driving a shuttle car.
    My son and I actually worked together at several mines. I am 
presently employed by Massey at the Parker Peerless mine, but I am off 
work because of the trauma I've suffered as a result of losing my son.
    Safety inspections were much different in the union mines I've 
worked at versus the nonunion Massey mines. When an MSHA inspector 
comes onto a Massey mine property, the code words go out ``we've got a 
man on the property.'' Those words are radioed from the guard gates and 
relayed to all working operations in the mine. The mine superintendent 
and foreman communicate regularly by phone, and there are signals that 
require the foreman who is underground to answer the phone. That is one 
way that the message is conveyed that an inspector is on the property. 
When the word goes out, all effort is made to correct any deficiencies 
or direct the inspector's attention away from any deficiencies.
    When I worked at union mines, workers at the mine would accompany 
the MSHA inspectors during their inspections. I was on a safety 
committee and the members of the committee took turns going around with 
the MSHA inspectors and pointing out areas of concern. Moreover, as a 
union miner I was able to refuse to work in unsafe conditions without 
fear of retaliation.
    When the MSHA inspector comes to a Massey mine, the only people 
accompanying him are Massey company people. No coal miner at the mine 
can point out areas of concern to the MSHA inspector. In fact, for a 
miner working for Massey, the feeling is, if an MSHA inspector fails to 
say anything about all of these safety problems, what right do I have 
to say anything about them, and I definitely would be terminated or 
retaliated against if I said anything.
    MSHA inspections at Massey did little to protect miners. Employees 
who work in underground coal need the absolute right to address the 
MSHA inspector directly and tell him about any areas of concern they 
have--without fear of retaliation. We absolutely looked to MSHA for 
leadership, particularly on safety issues, but MSHA has let us down 
many times.
    The MSHA inspectors usually do their inspections during the day 
shift, but the mines mine coal during many other shifts. MSHA needs to 
conduct inspections during the evening shifts and Saturdays, in 
addition to the week day shifts to ensure that they are there whenever 
coal is being mined. Having them only inspect mines during the day 
obviously creates an opportunity for the mines to not comply with all 
safety requirements during the hours that they know the inspectors will 
not be around. When MSHA is not present, there is no thought of doing 
anything other than producing coal. The miners are not allowed to hang 
curtains or conduct any other safety operations if they would interfere 
with or delay the production of coal.
    From my experience, I believe the law could be strengthened to help 
protect the safety of miners in the following ways:
    <bullet> Have the inspectors conduct inspections during every shift 
when coal is being produced at the mine, not just during the day shift.
    <bullet> Require inspectors to randomly select different miners to 
accompany them during their inspections, so that the miners can tell 
the inspectors about their concerns without fear of retaliation.
    <bullet> Hold inspectors responsible for the safety of the miners. 
These men look to federal mine inspectors for leadership.
    <bullet> Do not allow any prior warning of inspections. When an 
MSHA inspector comes onto a mine property to conduct an inspection, 
there should be a severe penalty for alerting anyone of the inspector's 
presence, a penalty that discourages anyone from providing such a 
warning. MSHA inspectors should be able to come unannounced and inspect 
mines at any time.
    The Upper Big Branch mine used to be a very safe mine but something 
happened. During the last year, I understand that there were serious 
violations at the mine and many (d) orders written. This mine was 
clearly not safe and as a result 29 miners died, including my son. He 
worked for 14 years underground and had been on the long wall for 8 
years.
    Someone needs to be held responsible for these deaths. And more 
importantly, we need to change the laws or modify them to make sure 
this does not happen again. I ask the members of this committee to 
undertake such a commitment to my family and the families of all of us 
who have lost their loved ones in this explosion to make sure that this 
never happens again. We've had enough tragedy in West Virginia in coal 
mining. There should be no reason this continues, and I'm asking you to 
pass laws that ensure that miners do not have to work in an unsafe 
place, and that they can refuse to work if it is unsafe without the 
fear of being fired.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you very much. Mr. Morgan, welcome.

        STATEMENT OF STEVE MORGAN, FATHER OF ADAM MORGAN

    Mr. Morgan. Thank you. I'd like to thank you for the 
opportunity to talk on behalf of my son, Adam. My name is Steve 
Morgan. I'm the father of Adam Morgan who was 29 years old when 
he was taken from us on April 5th at the Upper Big Branch mine.
    Adam and I would always talk in the evening when he would 
come home from work. He'd tell me the problems they'd run into. 
He talked a lot about they had a lot of ventilation problems at 
that mine. Stoppings were knocked out when he went in on his 
job on dayshift where he'd have to replace it while they were 
still running coal. Like six stoppings at a time when 
ventilation was broke and, even on the intake side fittings, 
the air to the long wall, a curtain would be around to direct 
it down the long wall face and he would go in and come home and 
tell me that he'd have to put them curtains up.
    He was just a trainee, but he was smart enough to know that 
you had to have ventilation. He had 2 years of mine engineering 
so, you know, there he worked one summer an internship at the 
mine where I worked at when he was going to college, so he 
knowed everything that was supposed to be.
    And he talked about water in the entries there that had 
blocked off the ventilation, you know, that restricted air flow 
with so much water, and he would come home and he'd be wet all 
the way up to his chest with water there, and he'd wade in that 
from the block back. And he talked--he come home several times 
early on account of ventilation problems, they sent him home 
early and talked about the methane, the high level of methane 
they'd run into, you know. And for that he would come home. One 
week prior to the accident, on account of high gas levels, they 
sent him home early.
    And he talked about float dust, a lot of float dust in the 
mine there. Some places he'd work he couldn't even see what he 
was doing. And he told the rock dust had to be done. They'd 
call when the safety inspector was on the way in and rock dust 
certain areas. You're cleaning, he had to clean it to make it 
look pretty for the inspector when he come in. He done that.
    Like I said, he was a trainee. He'd be left alone a lot, 
too. As a trainee, he ain't supposed to be left alone. He's 
supposed to have a black hat, a certified man, with the 
trainee. They would leave him alone back in the plow there, 
back behind the plow, back behind the entry building cribs and 
somebody would show up with the inspector and so on. They would 
bring him out of there and put him with a black hat so they 
wouldn't catch him by hisself, because it's against the law for 
a trainee.
    He told me, too, about--I told him, I said when they ask 
you to do something like that our practice at the mine when I 
worked in the union mine for 29 years, that if you are doing 
something that's unsafe and you feel it's unsafe, you go 
through a procedure and tell your foreman and say, ``I feel 
it's unsafe, could you remove me from that area and find me 
some other work? I ain't refusing work, but I want to stay out 
of that place.'' That worked for us, you know, they'll move you 
and then they'll go around and take care of the situation.
    So he told his boss that--I told him how to do it. I said, 
you know, go in this procedure so they won't get mad at you. I 
said, tell them you think it's unsafe and you want to be put 
out by in a safer area, because he was a trainee, and see what 
they tell you. The boss pulled him to the side there by 
hisself, and told him, said, ``If you're going to be that 
scared of your job there, you need to rethink your career, 
because that's the way we do things.''
    Like I say, I worked a union mine for 29 years. We have 
that right to refuse to work in an unsafe area. And he was 
talking about every time he'd come home we talked about it. It 
was always ventilating for methane or unsafe conditions that he 
had to go through to work. And I told him, I said, you need 
to--actually, I tried to talk him into quitting 2 weeks prior 
to the accident. I said if it's that bad, you need to go ahead 
and come on out and we'll find you something else.
    But that's the only place they were hiring trainees. And he 
said, ``Well, Daddy,'' he said, ``when I make my black hat, 
I'll get a better opportunity to get a job elsewhere when 
you've got your black hat,'' because he'd done been told by 
several miners if he had his black hat, they would hire him 
today, you know. I tried to talk him into that and he said, 
``When I make that black hat,'' he said, ``I'll go ahead and 
quit right after that.'' He was up for--his time was up. He was 
going to make his black hat that week.
    And you know, there's laws and everything out there already 
to protect these people, there just ain't nobody enforcing it. 
And that ain't, you know--the inspectors, we deal with them 
every day. I think they do a good job and our mine also, your 
foreman at that mine, when he takes on that job, he takes on 
that responsibility to make sure you work safe and take care of 
you. And I think the foreman, too, ought to, you know, rethink 
their job. They need to do what they're supposed to. They can 
make it safer. I've done some, you know, foreman or boss or 
two, and I ain't never had no accident or no violation. It 
ain't hard to do, I don't think. And I want to thank you for 
your time.
    [The statement of Mr. Morgan follows:]

       Prepared Statement of Steve Morgan, Father of Adam Morgan

    My name is Steve Morgan. I'm the father of Adam Morgan, who was 21 
years old when he taken from us on April 5, 1010 at Upper Big Branch.
Ventilation
            Ventilation always bad
    Stoppings regularly knocked out--rebuilt six one day. Very 
irregular and creates major ventilation concern to have 6 stoppings in 
one area down, however, ventilation was so bad that they were 
constantly tearing down and reconstructing stoppings and even required 
engineers to come in and help design the layout. Was in water up to his 
waist which restricted air flow.
    Curtain on intake side that feeds air to longwall face would be 
removed on a regular basis.
    Ventilation was so bad he was sent home early several times, 
including once about a week before the explosion because they weren't 
getting enough air.
            Methane
    Would mention high levels of methane at least weekly.
            Float Dust
    Would be times it was so thick he couldn't see.
    All return air was going to plow, pulling all dust towards his work 
area.
    Once he told me that they were notified an inspector was on his way 
in, and he was told to hurry up and apply rock dust to keep the float 
dust down.
Overall Safety
    Adam would be left alone to work behind the plow in bad top to 
build cribs despite being a red hat, or apprentice miner, and when an 
inspector came out they would take him outby with a black hat, or 
experienced miner, as required by law.
    I told Adam to tell his boss that this practice was unsafe and he 
didn't want to do it and when Adam told boss, the boss told him if he 
was that scared, he needed to rethink his career
Working Union v. Working Massey
    I have worked 29 years as a union coal miner. Adam worked 6 months 
at Massey.
    When safety concerns are present, I have the right as a union miner 
to refuse to do an unsafe job without fear of losing my job. When Adam 
voiced his concern to company officials, he was told he may need to 
find a new job.
    Instances such as those explained to me by my son would neither be 
condoned nor allowed to occur at the mine where I work, but were 
routine at UBB.
    This has affected me to the point that my career as a miner is 
uncertain and I have been pulled out of the mine due to panic attacks 
and anxiety.
                                 ______
                                 
    Chairman Miller. Thank you. Mr. Cook?

         STATEMENT OF EDDIE COOK, UNCLE OF ADAM MORGAN

    Mr. Cook. My name is Eddie Cook. I'm Adam Morgan's uncle. 
Adam was 21. April the 5th, you know, the explosion took him 
away from us. I worked at Cleveland Cliffs Pinnacle mine for 30 
years, union. And I went back to the mines right after the 
explosion, was talking to several people, you know, about the 
practices that was going on at UBB.
    And one of the guys, I didn't get his name, come up to me 
and he said, ``You know, I've worked here about 5 years.'' He 
said, ``Everything that you're saying as far as mining with no 
curtain, lack of rock dusting, methane checks not being what 
they was supposed to be,'' he said, ``I did it because I 
thought that was the way mining was.'' He said, ``I was young 
and didn't know no better. Well, I come to work here and you 
guys as the union,'' and I'm not here to toot a union horn, but 
we showed him the right way to do it. And he said, ``I 
appreciate it,'' you know. And he said, ``The reason we done it 
and that most of the young people do it is they're taught that 
way.''
    And, you know, like Mr. Morgan said, you know, as a union 
person, we have the right to refuse to do work we think is 
unsafe. Non-union mines, you don't have that. You don't have 
the right to refuse. If you refuse, they tell you to ``get your 
bucket and go home,'' you know. ``If you don't want to work 
here, we've got people out on the street wanting your jobs. And 
if you don't like the way we run it, you can go home.''
    And then you've got these people that tell, you know, 
you're talking about the whistleblowers. That's great if you 
can inform, you know, get a law that helps these whistleblowers 
keep their jobs, that's great, but they're going to fire them 
down the road for something else, you know? They're going to 
find something down the road to fire them for. ``We didn't fire 
him for telling on us. We fired him for having a cat fight,'' 
you know.
    Why don't we get a committee in each state to check on 
these people, you know? You get fired, give them a number to 
call, say ``Hey, listen, they fired me. I want you to check in 
on it.'' You know? And then go back to the operators and say, 
``Okay, you know, you fired this guy for this. We're going to 
do this to you, you know.''
    As far as MSHA goes, I think MSHA at our mines does a great 
job, seriously. But I think they need a little bit more power. 
You know, you need to give these people some more power to 
where, if they see something wrong, okay, we're going to shut 
this down right now. We're going to shut it down until you get 
it fixed, is what I think on that.
    As far as, you know, they have the power to come in and 
give you orders and shut you down, and they give you so many 
times and so much time, but if you keep doing this and you keep 
getting shut down, you're not going to do it much longer, you 
know, because you're losing production and if you shut down 
production, these people ain't going to be in business. I think 
that, if we could give MSHA more power to enforce the laws that 
we have now, I think we would see a difference.
    But as far as union mines, ask yourself how many Massey's 
got, because they know their union would be people that would 
work like law enforcements. They have the right to say no. And 
they don't have the right to say no, now. I think we need to 
get them some power. Thank you very much.
    [The statement of Mr. Cook follows:]

      Prepared Statement of Charles E. Cook, Uncle of Adam Morgan

    My name is Charles E Cook, but I go by Eddie.
    I'm the uncle of Adam Morgan, who was 21 years old when he taken 
from us on April 5, 1010 at Upper Big Branch.
    I have over 30 years experience in mining, 29 of which are at a 
union mine.
    I work at the Pinnacle mine for Cleveland Cliffs, and we try to do 
things the right way. Not long after the explosion, I talked to a guy 
at the mine I work who used to work at the Upper Big Branch mine. I 
told him that I heard tales of things like coal being mined with the 
curtains pulled down, and he confirmed that this was a regular practice 
in his time at the mine, and he ultimately lef tteh mine because of 
certain practices. He stated that he was not even aware that the way 
certain things were done at UBB were unsafe or illegal until he came to 
the Pinnacle mine and saw how we operated and tried to comply with 
mining laws.
    As a union miner, I have the right to refuse to perform a job if I 
think it is unsafe without a fear of losing my job. I would like to see 
the same protections for all miners, not just union miners. There needs 
to be a system in place to protect whistleblowers and to ensure that 
these miners won't be fired a few weeks down the road for some other 
reason when in reality it is just retaliation for pointing out safety 
concerns or refusing to do unsafe jobs.
    MSHA needs to be granted more authority and power to shut down 
sections of a mine or the entire mine if an unsafe condition is noted 
which presents a serious risk to miners, instead of having to wait for 
several repeat occurrences of the same violation.
                                 ______
                                 
    Chairman Miller. Thank you. Ms. Peters, welcome to the 
Committee.

          STATEMENT OF ALICE PETERS, MOTHER-IN-LAW OF
                     EDWARD ``DEAN'' JONES

    Ms. Peters. My name is Alice Peters and I am the mother-in-
law of Edward Dean Jones. Dean was killed in the explosion on 
April the 5th at the Upper Big Branch mine. He was 50 years old 
and was a section foreman. He had worked at the mines over 13 
years, and as a miner for over 30 years.
    Dean was married to my daughter, Gina. They had one son, 
Kyle. Kyle suffers from cystic fibrosis and has medical 
problems that require constant medical care. I was very close 
to my son-in-law and regularly spoke with him on the phone and 
in person. I also helped them care for my grandson.
    My daughter and I are particularly close. Since the death 
of her husband at the Upper Big Branch mine explosion, my 
daughter, Gina, has been very upset. She will not go out unless 
I'm with her, even to the grocery store or the beauty salon. 
She will not go out unless I am with her and then she cries the 
entire time. She is having an extremely difficult time with the 
loss of her husband and her concerns for the future.
    Dean told me many times that he had concerns about the 
ventilation at the Upper Big Branch mine. He often told me and 
his wife that he was afraid to go to work because the 
conditions at the mine were so bad. He also told me at least 
seven times he told Massey that--they told him if he shut down 
production because of ventilation problems, that he would have 
no hours. He would lose his job. They knew about his son, and 
that Dean needed to keep his job to make sure his son could get 
the medical care he needed.
    On more than one occasion, I called the mine and told them 
there was an emergency regarding his son, that he had to come 
home, in order to get him out of the mines because I feared for 
his safety.
    My son-in-law was a very good miner and could have gotten a 
job anywhere. He had a college degree in mine engineering; 
however, because of the physical disability of his son and the 
absolute necessity of maintaining his health insurance 
benefits, Dean wasn't able to leave Massey's employment. He 
continued to work in that mine, even though he knew it was 
unsafe and he was afraid of being fired, losing his health 
insurance. Thank you.
    [The statement of Ms. Peters follows:]

 Prepared Statement of Alice Peters, Mother-in-Law of Edward Dean Jones

    My name is Alice Peters and I am the mother-in-law of Edward Dean 
Jones. Dean was killed in the explosion on April 5th at the Upper Big 
Branch mine. He was 50 years old and was a Section Foreman. Dean had 
worked at the mine over 13 years and. as a miner for over 30 years. 
Dean was married to my daughter, Gina, and they have one son, Kyle. 
Kyle suffers from cystic fibrosis and has medical problems that require 
constant medical care.
    I was very close to my son-in-law and regularly spoke with him on 
the telephone and in person. I also helped them care for my grandson. 
My daughter and I are particularly close.
    Since the death of her husband at the Upper Big Branch Mine 
explosion, my daughter Gina has been very upset. She will not go out 
unless I am with her, even to the beauty salon. She will not go out 
unless I am with her, and then she just cries the entire time. She's 
having an extremely difficult time with the loss of her husband and her 
concern for the future.
    Dean told me many times that he had concerns about the ventilation 
at the Upper Big Branch mine. He often told me and his wife that he was 
afraid to go to work because the conditions at the mine were so bad. He 
also told me that, at least 7 times, he was told by Massey supervisors 
that, if he shut down production because of the ventilation problems 
(bad air), he would lose his job. They knew about his son and that Dean 
needed to keep his job to make sure his son could get the medical care 
he needed. On more than one occasion, I called the mine and told them 
there was an emergency regarding his son that he had to come home and 
handle in order to get him out of the mine, because I feared for his 
safety..
    My son-in-law was a very good miner and could have gotten a job 
anywhere--he had a college degree in mine engineering. However, because 
of the physical disability of his son and the absolute necessity of 
maintaining his health insurance benefits, Dean was unable to leave 
Massey's employment. He continued to work in that mine even though he 
knew it was unsafe because he was afraid of being fired and losing his 
health insurance coverage.
                                 ______
                                 
    Chairman Miller. Thank you. Mr. Mullins.

       STATEMENT OF CLAY MULLINS, BROTHER OF REX MULLINS

    Mr. Mullins. Yes, my name is Clay Mullins. First of all, 
I'd like to thank Governor Manchin for all the support that you 
showed all the family members. I lost my brother Rex at the UBB 
Mine explosion. Rex was a good father, husband, a son, and a 
brother. He loved to hunt and fish. He loved working with wood, 
making chairs and all sorts of things. He loved spending time 
with his grandkids. He was an avid West Virginia football and 
basketball fan. He liked his job, and that job he had on the 
long wall and he did it well.
    I'm also a coal miner. I've been a coal miner from 1977 to 
the present. I also work on a long wall section. I've been 
around long wall mining for approximately 10 to 12 years. I 
worked previously at UBB with my brother as well, as with all 
the other miners at UBB. I'm a maintenance foreman on the long 
wall and I'm currently employed at Speed Mining in Cabin Creek, 
West Virginia.
    I have not worked since the UBB mine accident. I worked 
previously at UBB before we moved to Logan's Fork. When I was 
at UBB before, we always had methane. In that coal seam, you've 
always got methane. You've just got to take the right measures, 
the right ventilation will take care of your methane problems.
    Sometimes we'd have water get in our returns and they would 
stop off ventilation and reverse the ventilation air filters, 
but we always corrected it. When I was there before, we always 
took care of the problems that we had. But things must have 
changed since I left, because I've been going through the 
violations they received, and they received a lot of 
ventilation violations, and a lot of serious ventilation 
violations.
    As far as knowing when the inspectors was coming to the 
mines, when the inspectors come across the bridge to the guard 
shack, the guard at the guard shack immediately informs the 
mine office there's an inspector on the property. When he calls 
the mine office and the mine offices call underground and tell 
all the sections that they had an inspector on the property, to 
make sure everything was right and, if it wasn't, to fix it 
before the inspector got there, to make sure it was right.
    A lot of this--I place a lot of fault with Massey on the 
way that they run the mines. Also, there's a lot of fault with 
MSHA for a mine having this many ventilation problems and not 
being shut down and being corrected. They might have corrected 
at the time, but apparently that correction didn't work or we 
wouldn't be here today.
    I think you need to make some laws that, if you've got a 
mine that's having serious ventilation problems or any serious 
problems that's going to cause injury or death to any of our 
miners, that we need to pass a law to give MSHA the power or 
someone the power to come into that mine and, if the operator 
does not get that mine fixed and in the condition, a safe 
working condition for the men, then someone needs to come in, 
step in, and say, ``Enough's enough, we're going to fix this. 
We're going to shut down and we're going to fix this. Until 
this problem is corrected, you're not going to operate no 
more.''
    This is my brother. I don't have him no more. I worked with 
all these guys at this mine, all except about four of them. I 
knew them. This is my other friends and brothers that I lost. 
And members of the Committee, I would hope that you all would 
pass a law that protects all these miners. There are 29 
families that suffered. I don't want to see 2 years down the 
road or 4 years down the road another 10, 20, or 30 families 
wearing shirts like this. Thank you.
    [The statement of Mr. Mullins follows:]

       Prepared Statement of Clay Mullins, Brother of Rex Mullins

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Thank you. Mr. Stewart.

            STATEMENT OF STANLEY ``GOOSE'' STEWART,
                     UPPER BIG BRANCH MINER

    Mr. Stewart. I'd like to thank you, Chairman Miller, for 
allowing me to speak before this committee today. My name is 
Stanley Stewart. Most people know me as ``Goose.'' I've worked 
in the coal mines for 34 years, the last 15 of those at Upper 
Big Branch. I worked as a jack setter, a shear operator on the 
long wall, and I was a continuous miner operator at the time of 
the explosion. I'm here to tell my story today because I worked 
at Upper Big Branch and I was 300 feet underground the day the 
explosion occurred.
    Although I did not lose a family member, I feel as if I 
did. Men like William Griffith, Ricky Workman, Eddie Mooney, 
Timmy ``Grizz'' Davis, Gary ``Spanky'' Quarles, Rex Mullins, 
and 23 others who were like brothers to me.
    I also know firsthand how bad conditions were at the mine 
and want everyone to know. In fact, last July because I was so 
scared and mad, I told my wife, Mindi, if anything happens to 
me for her to get a lawyer and sue them. I told her, I said, 
``This place is a ticking time bomb.'' She told me to write 
things down that were wrong because she wouldn't know what to 
do or say. So I began to write down a few things I knew that 
were illegal and wrong.
    On April the 5th, I was sitting on the mantrip at about 3 
p.m. with several other miners. We were approximately 300 feet 
underground. We were getting ready to head to the section when 
I felt a breeze coming from inside the mine. The intensity 
picked up quickly and I realized something bad was happening. 
So I left the mantrip and started making my way toward the 
outside.
    Before I could get out, the air velocity increased to what 
I felt was hurricane strength, and I felt my feet wanting to 
leave the ground. The air was full of dust and debris, and I 
couldn't see. Although I didn't have far to go, I nearly 
panicked, afraid that I might not make it outside being that 
close.
    Many things were wrong at the mine, such as low air. The 
area of the mine we were working was liberating a lot of 
methane. Mine management never fully addressed the air problem 
when it would be shut down by inspectors. They would fix it 
just enough to get us to load coal again and then it would be 
back to business as usual. The long wall worried me because of 
the ventilation. My experience on the long wall, I knew the 
ventilation system they used did not work and, with so much 
methane being liberated, no air moving, I felt that area was a 
ticking time bomb.
    I was told before the April 5th explosion that they had 
experienced at least two fire balls on the drum of the shearer. 
I knew that meant methane was building in that area and also 
building ventilation problems. The questions that I have are: 
how does methane build up to the point where a fireball would 
start and how could this happen if the methane detectors had 
been working or working properly?
    On July 26th, 2009, on the evening shift, our crew was told 
by management to make an air change from sweep air to split air 
on the Head Gate 21 where the long wall is now. But we were 
developing the continuous miner section at this time. We 
knocked stoppings while crews were still working. Anything to 
do with changing ventilation, by law, a mine has to be 
evacuated because there won't be enough air. People working 
``in by'' will have their air short-circuited by the change in 
ventilation. However, the section crew was still working when 
the air change was made. And I'm not sure if MSHA was aware of 
the whole situation, but it scared me and, when I got home, I 
wrote it down.
    The morale around the mine for the most part was bad. No 
one felt they could go to management and express their fears 
about the lack of air on our sections. We knew that we'd be 
marked men and that management would look for ways to fire us. 
Maybe not that day or that week, but somewhere down the line, 
we'd disappear. We'd seen it happen, and I told my wife I felt 
like I was working for the Gestapo at times.
    They took vacation time from the miners last year because 
they wanted a certain average of coal loaded a shift by 
vacation time. The conditions of the mine where we were working 
were so bad it was nearly impossible to load that much coal 
safely. So we lost our vacation.
    I've worked close to 20 years in a union mine and 15 years 
non-union, so I've been on both sides of the fence--long enough 
to know the difference in how miners should feel in both 
working environments. In the union mine, if you had safety 
concerns, you had the right to refuse to work in unsafe 
conditions without fear of losing your job. Working in a non-
union mine, you do not have those rights. You know you have to 
operate with a lack of air or in unsafe conditions. They want 
you to load coal at all costs, and I feel that mentality is 
handed down from top management.
    I used to tell the guys during an organizing drive that no 
amount of money is worth your rights, but Massey--and Mr. 
Blankenship in particular--ran a hands-on anti-union campaign 
and threatened to shut the mines down if the union was voted 
in. He preached he wanted flexibility. It didn't take me long 
to know what his flexibility was. Do it his way or else. Massey 
don't need you. Get your bucket and get off the property.
    In general, MSHA needs to examine if long wall ventilation 
systems should go to the gob areas and determine that this 
method properly expels methane and the bad air from the 
sections. I feel that the ventilation should be directed to the 
``out by'' section of the mine. I've worked the long wall at 
the Peabody Number 7 mine next to UBB with this set up and it 
worked.
    Outlaw companies need to be put on pattern of violations 
easier than the existing laws allow. Protesting violations 
should not keep them from being put on a pattern. Once put on a 
pattern, then the company should have to pay MSHA-sponsored 
people for an undetermined amount of days, 24/7 until they can 
find out why the mine is being put on a pattern of violation 
and make them fix it. I think it's a shame you would have to 
babysit companies to make them comply, but if that's what it 
takes, that's what it takes.
    As far as I know, not one pattern of violation has been 
issued since the law was created in 1977. I feel that UBB 
should have been put on a pattern a long time ago. And also I 
feel the safety standards there, they're sufficient if they are 
obeyed and enforced, but there is room for improvement. Rock 
dusting standards should be improved and Congress needs to 
close the loophole to let mine operators off the pattern of 
violations.
    That was one of the beauties of working in a UMWA mine. You 
did things right, the company tried to do things right, as 
opposed to my last 15 years of employment. We did some things 
right, but were forced to do many things wrong. Thank you, sir.
    [The statement of Mr. Stewart follows:]

        Prepared Statement of Stanley ``Goose'' Stewart, Miner,
                         Upper Big Branch Mine

    My name is Stanley Stewart. Most people know me as ``Goose.'' I 
have worked in coal mines for 34 years and at the Upper Big Branch mine 
for 15 of those years. I have worked as a jack setter and shear 
operator on the long wall, also worked 3 years on the outby long wall 
and from January 2009 to April 5, 2010, a continuous miner operator.
    I am here to tell my story today because I worked at the Upper Big 
Branch mine until the day of the accident and was 300 feet underground 
the day the explosion occurred. Although I did not lose a member of my 
family, I lost several co-workers, including William Griffith, Ricky 
Workman, Eddie Mooney, Timmy Davis, Gary Quarles, Rex Mullins and 22 
others who were like family to me. I also know firsthand how bad 
conditions were at the mine and want everyone to know. In fact, last 
July, I told my wife, Mindi, ``If anything happens to me, get a lawyer 
and sue the [blankety blank] out of them! That place is a ticking time 
bomb.'' Only I didn't say ``blankety blank'' to her because I was so 
scared--and mad! She told me to write down things that were wrong 
because she wouldn't know specifics or the terminology to convey what 
was happening. I began to write down things I knew were illegal or 
wrong.
    On April 5th, I was sitting on a mantrip at about 3 pm with several 
other miners approximately 300 feet underground. We were getting ready 
to head to the section when I felt a breeze coming from inside the 
mine. The intensity picked up quickly and I realized that something bad 
was happening so I left the mantrip and started making my way toward 
the outside. Before I could get out the air velocity increased to what 
I felt was ``hurricane strength'' and I felt my feet wanting to leave 
the ground. The air was full of dust debris and I couldn't see. 
Although I didn't have far to go I panicked, afraid that I might not 
make it out to safety.
Red flags
    Many things were wrong at the mine such as low air constantly. The 
area of the mine we were working was liberating a lot of methane. Mine 
management never fully addressed the air problem when it would be shut 
down by inspectors. They would fix it just good enough to get us to 
load coal again, but then it would be back to business as usual. The 
long wall worried me because of the ventilation. My experience in the 
mines showed me that the ventilation system they had didn't work. And 
with so much methane being liberated, and no air moving it gave me the 
feeling that area was a ticking time bomb. I was told prior to the 
April 5th explosion, that they had experienced at least 2 fireballs on 
the drum of the shearer. This leads me to believe the methane was 
indeed building in that area, showing lack of air and ventilation 
problems. One question that I have is how could methane build up to 
that point where a fireball could start? How could this happen if the 
methane detectors had been working?
    On July 26, 2009 on the second shift, our crew was told by 
management to make an air change from sweep air to split air in Head 
Gate 21. They knocked stoppings while crews were still working. 
Anything to do with changing ventilation, by law, the mine is to be 
evacuated because there won't be enough air. People working inby will 
have their air short circuited by the change in ventilation. However, 
the section crew was still working when the air change was made. I'm 
not sure MSHA was aware of the whole situation. But it scared me, and 
when I got home I wrote it down.
Mindset of miners
    The morale around the mine for the most part was bad. No one felt 
they could go to management and express their fears or the lack of air 
on our sections. We knew that we'd be marked men and the management 
would look for ways to fire us. Maybe not that day, or that week, but 
somewhere down the line, we'd disappear. We'd seen it happen and I told 
my wife, I felt like I was working for the Gestapo at times. They took 
vacation from the miners last year because they wanted a certain 
average of coal loaded a shift by vacation time. The conditions of the 
mine where we were working were so bad, it was nearly impossible to 
load that much coal safely.
Union vs. Non-union
    I worked close to 20 years in the union and 15 years non-union so 
I've been on both sides of the fence long enough to know the difference 
in how miners feel in both types of working environments. In the union 
if you had safety concerns you had the right to refuse to work in 
unsafe conditions without fear of you job. You felt at ease and 
comforted by your rights. Working at a non-union mine you do not feel 
that comfort. You know you have to operate with a lack of air or in 
unsafe conditions. They want you to load coal at all costs and I feel 
that mentality is handed down from top management. I used to tell the 
guys during an organizing drive that no amount of money is worth your 
rights. But Massey and Mr. Blankenship in particular ran a hands-on 
anti-union campaign and threatened to shut the mine down if the union 
was voted in. He preached he wanted ``flexibility''. It didn't take me 
long to know what his flexibility was; do it his way or else ``Massey 
don't need you. Get your bucket and get off the property''.
Law improvement
    In general, MSHA needs to examine whether it should allow long wall 
ventilation systems to go to the gob area and determine if this method 
properly expels methane and bad air from the section. I feel that 
ventilation should be directed to the outby section of the mine. I've 
worked the long wall in the Peabody Number 7 Mine, next to UBB with 
this set up and it worked.
    Outlaw companies need to be put on Pattern of Violations easier 
than the existing law allows. Protesting violations should not hide the 
violations and should not keep them from being put on pattern. Once put 
on a pattern then the company should have to pay MSHA sponsored people 
for an undetermined amount of days 24 hours, 7 days a week to find out 
why that mine has been put on the pattern of violations and make them 
fix it. Something is wrong when not one pattern of violation has been 
issued since the law was created in 1977.
    I feel the safety standards can be sufficient if they are obeyed 
and enforced, but there is room for improvement. Rock dusting standards 
should be improved, and Congress needs to close the loop holes that let 
mine operators off the pattern of violation.
    That was one of the beauties of working in a UMWA mine; you did 
things right, the company tried to do things right as opposed to my 
last 15 years of employment. We did some things right, but were forced 
to do some things wrong.
                                 ______
                                 
    Chairman Miller. Thank you, Mr. Stewart. Thank you to all 
of you for providing us your testimony. I think we can already 
see the value of it. Mr. Quarles, Mr. Morgan, Mr. Mullins, and 
Mr. Stewart, it's my understanding that none of you have 
returned to work since this accident; is that correct?
    [Affirmative nods from said witnesses.]
    Chairman Miller. So, what is your status? You've made this 
decision. You don't want to; you cannot return to work. What is 
your status with the company or with the union?
    Mr. Stewart. I'm currently drawing Workers' Compensation. 
I'm under a doctor's care. I cannot go back in that coal mine. 
Been through a lot in 34 years, and always stood tall and went 
back. I can't go back this time.
    Chairman Miller. Mr. Mullins?
    Mr. Mullins. Same here. I'm under a doctor's care. I'm just 
like Goose, I'm under a doctor's care. I'm going to counseling. 
I don't think I can go back there.
    Chairman Miller. Mr. Morgan?
    Mr. Morgan. Yeah. I'm under a doctor's care. I went back 14 
days after April 5th and tried it there. I worked 7 days and I 
was just getting more and more ill thinking about Adam there 
and had panic attacks, anxiety, and depression and didn't want 
to be left alone. And I'd get, you know, angry, too. And I went 
to the doctor and asked about it and they told me I better take 
some time off.
    Chairman Miller. Thank you. Mr. Quarles?
    Mr. Quarles. I'm off under a doctor's care, too. I just 
can't see myself going back. I ain't never been afraid to go 
underground in my life, but I just can't see myself wanting to 
go even close to it, I dread that.
    Chairman Miller. Mr. Morgan, Mr. Mullins, Mr. Stewart, 
well, actually the four of you again, if you don't mind. Mr. 
Cook, you can--in the discussions with your son and your 
brother and other members and your own experience working in 
the mine, and some of you worked there before, it sounds a 
little bit random whether or not you were in a safe environment 
or you weren't, depending, you know, at this mine.
    Mr. Quarles, you testified and you said it was a pretty 
good mine, but things have changed and Mr. Morgan tells us his 
son is almost telling a horror story at the beginning of every 
shift where he has to go back and put the mine curtains and the 
ventilation back into some kind of shape to get ready to go to 
work, but other people were working there on the previous shift 
where those things happened and the curtains were not rehung or 
what have you. Is that a fair summation?
    Mr. Morgan. Yeah, that's what he said. And they moved the 
power pack on the long wall when they set back, you know, and 
they wouldn't put the intake curtain back in. When he would go 
in in the morning, he'd even tell the foreman, he'd say we've 
got to have that curtain in there and he'd say this is just a 
young man who's been in the mine six months. But you're an 
engineer and you knew that curtain shouldn't have to go back in 
there, it should have already been back in there to feed the 
air down to the long wall.
    Chairman Miller. There's been a lot of discussion here 
about ventilation, and if I listened to you correctly as you 
related your discussions with your family members, if there was 
a ventilation plan, and it sounds like you began with a 
ventilation plan, when you know where you're going to be doing 
the cutting, where you know you're going to be doing the work, 
you design the ventilation plan to take into account the level 
of methane, the kinds of activities there, but that ventilation 
plan seems to rather quickly erode after you start working in 
that area. Correct me if I'm wrong, but that plan doesn't 
appear to be worth much for very late into that area where 
you're working.
    Mr. Stewart. I used to tell my boss, I'd say if the 
management would get the air to the section, we could ventilate 
the section, but we've got to have it. And we couldn't get it. 
I mean, I've seen the anemometer not even move, right dead in 
our intake before it even got to the section. And, you know, 
I'll give that boss I had at that time credit. He said we 
weren't going to load and we went to look for air but, you 
know, if it ain't there, you can't find it. And management, I 
don't know, I would refer to them as the village idiots. They 
don't know how to ventilate a coal mine. I mean, it's their job 
to get the intake up to the section and then it's our job to 
ventilate the facings.
    Chairman Miller. Mr. Mullins?
    Mr. Mullins. That's correct, exactly what they said is 
correct.
    Chairman Miller. Mr. Cook?
    Mr. Cook. You know, our mines probably about a month ago 
had ventilation problems and MSHA come in and shut us down. 
Said that's it. You're going to be shut down until you get this 
repaired. Now, if we can do that at a union mine, why can't you 
do it at non-union mines?
    Chairman Miller. Mr. Quarles?
    Mr. Quarles. I know when my son was there at UBB before the 
long wall, left UBB and went to Logan's Fork, me and him would 
talk about Logan's Fork, how bad Logan's Fork was. And then 
when the long wall left Logan's Fork and come back to UBB, he 
said, ``My God, Dad,'' he said, ``Logan's Fork is a credit to 
what this is here.'' So something did happen. At some time or 
another, a lot of the people liked to work at UBB. That was my 
understanding. But between the time the long wall left UBB and 
went to Logan's Fork and come back, something changed. I don't 
work there--that's just what he was telling me.
    Chairman Miller. Thank you. Governor, if I might just take 
a moment here. I'm intrigued, very disturbed by this testimony, 
but I'm intrigued by your notion of certified mine teams, 
because again, throughout this testimony and these discussions 
with family members, and discussions staff have had, there's 
just--it appears in this case there's just a constant sense of 
intimidation and retribution if miners spoke out and the idea 
that it seems to me we have to devise a system here where an 
issue of whether or not safety is going to be reported, whether 
or not corrections are going to be made, whether or not men are 
going to have to enter the mine or not cannot be catch as catch 
can. Cannot be dependent upon who's in that mine at that 
particular time, whether that's an SOB who threatens to fire 
you or whether that's someone saying let's get this thing 
fixed.
    The system seems to protect those individuals a little bit 
more than it does the miners, and you referred to the 
bureaucracy. When you work your way through, when we had the 
hearings on the avoidance of the patterns of violation, it's 
pretty clear that this whole system is set up and the people 
who could not get it were the companies who were interested in 
keeping themselves from being closed. If anybody else 
circumnavigated the system, they would just run out of strength 
at some point. So just listening to this testimony, I'd like to 
come back to your suggestion about the certified mining teams 
and about how we provide that kind of insulation protection for 
people who have to make life and death decisions about the 
operation of this workplace.
    Governor Manchin. You know, it's quite disturbing to hear 
what we're hearing, and I heard this for 5 days after talking 
with the families and spending that much time with them, so it 
just weighed on me. After the Sago and Aracoma, we knew exactly 
that we had a problem if something, God forbid, happened, if 
somebody got trapped, there ought to be lifesaving measures. 
Lifesaving measures, we could go and get them and get them out 
safe. We had 12 miners onsite that we should have been able to 
save if we could have had these steps in place at Sago.
    So we knew that we had to have rapid response. We weren't 
getting new people moving quick enough with the right 
equipment. We knew we had to have tracking and communications 
and we knew we had to have lifesaving oxygen. That was pretty, 
you know, standard and pretty straightforward. We did that 
immediately and passed legislation in one day, took it to 
Congress, and Congress took it. I commend all of you for 
working as quickly as you did.
    This one here is telling us until we have an investigation, 
we really don't know. But we know by hearing testimony from 
everybody here that it was a time bomb waiting to happen.
    Now, if this is going on in other mines and we don't know 
about it, and people are able and almost expect certain routine 
inspections at certain times and, even at that point in time, 
if there's a surprise or there's enough knowledge or enough 
awareness to do something to make it look like everything is 
fine, how do you prevent that?
    We've heard from UMWA mines, we've heard from basically 
companies that are responsible, and the majority in West 
Virginia empower their miners, empower people in the workplace, 
and all I have said is, if we have situations that don't do 
that because of a lack of organization or however they're 
structured, then we should empower every miner to be able to 
pull the plug and every good operator and every good corporate 
structure or business structure should have that as their 
standard of operation.
    And I'm thinking, okay, how do we do that and do that in 
law or code? And I said, you know, all my life I've heard 
rescue teams and how well they were trained, and I've watched 
how brave too many times in my life, how brave these people are 
that would go in and risk their own lives. I've watched them at 
Sago and I've watched them at Aracoma. I even remember back in 
Farmington in 1968, they were willing to put themselves in 
jeopardy every time.
    And I thought, if we can have a rescue team, why can't we 
have a prevention team? Why can't we have people that 
basically, 24/7, seven days a week they're on site? They report 
only to MSHA and to the state inspectors of what they see and 
are protected by law, that they can't be fired, retaliated, or 
intimidated and be able to say listen, I shut this down for 
this reason, and we're not going to continue that. And they 
have the power and the weight of the law with the criminal 
proceedings against people who try to circumvent that. That's 
all I try to do, is try to bring a common sense approach to how 
we could prevent this.
    I don't want to sit with another family member, other than 
in good times. Not in such horrible, sad times. So that's where 
this came from and I know we can do it. You know, we have 
people--you know, there's only so many things that can cause an 
explosion. You've got to have fuel and you have to have an 
igniter. The fuel was methane and coal dust and you combine 
those two and you've got a real lethal force on your hands. The 
igniter could be many things in a mine. It could ignite a mine, 
just the sheer mining of a mine could have an igniter and 
sparks, so you've got to have sufficient ventilation.
    And they know when it's the most dangerous time, when 
they're moving and switching and changing. That's when you--
you're not operating at that time, you're really concerned 
about a safe condition. And if a person's on the front line 24/
7, their life's on the line, and they are trained. These are 
certified trained by MSHA and by the state, people that can 
identify that. They're saying no, no, no, we don't need this. 
They should have the weight and protection of the law behind 
them.
    Chairman Miller. Thank you. I've taken a little prerogative 
as the Chair, I've gone over a little bit of time on this and I 
want to make sure Mr. Kline has the same amount of time, but it 
seems to me anybody at the gate and they're calling the mine to 
tell them the inspector's there or they're telling them, 
however they're interfering with that process of the MSHA 
Department of Labor people, somehow, that just on its face has 
to be an obstruction of justice, if you're interfering with 
this really lifesaving activity that goes on on a regular 
basis. I look forward to working with you on this issue, and I 
think the members of this Committee will also.
    When I was a young man, I worked in a lot of oil refineries 
and on oil tankers, went out to sea and it was before OSHA, and 
we had no protective gear. And when I worked in the oil 
refineries, some of those very large oil storage tanks, 
cleaning them out, we had individuals that would go face down 
because of the fumes. We'd just drag them out and go complain 
and say maybe we should have--sometimes they'd put a fan in one 
of them, the flanges, and they would just say, well, we don't 
have a fan today. It's your job to clean this out. And you 
know, to have OSHA there and have mine safety available, to not 
be able to enforce it because it is that line of protection for 
these families. I thank you. Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman. And thank the 
witnesses. We knew this would be tough testimony and I know 
that it was. It's pretty compelling. No one could be here today 
or be watching and listening to this on television or radio and 
not feel anger and some frustration. So I want to thank you for 
your testimony and just let you know that we, all of us, we 
can't feel your pain. No one can feel that pain like you can, 
but we all of us want to do everything we can to keep others 
from feeling that pain.
    There have been many ideas that some of you put before us, 
some suggestions. I found myself starting to write a little 
note in the margin and then a bigger note and then another 
piece of paper full of notes and I know that staff behind us 
and around are doing the same things.
    There are clearly some things that happened that shouldn't 
have happened, based on your testimony. Some of the things, 
apparently, there are already laws in place and they either 
weren't obeyed or weren't enforced, or both. Some of them are 
new ideas and we will be working together to explore those and 
see what can be done, what needs to be done in the way of 
legislation.
    Governor, I just want to thank you as my colleagues have 
for everything that you've been doing. It's interesting because 
you're a mining state. We've looked at the situation a number 
of times where you have these two governmental entities that 
are involved, Senator Rockefeller broached this subject and you 
did as well, Governor, where you have the federal MSHA and then 
you have the West Virginia Miner's Health Safety and Training. 
I don't know how to ask this without putting you on the spot, 
but if you could just sort of in general tell us what you think 
about how those are working together and is that something that 
we should be looking to address, that overlap, I think the 
Senator called it.
    Governor Manchin. Since I've been Governor, we have the 
best relationship right now. I will say that unequivocally. 
Now, it's been a very short relationship, but it's a good 
relationship, and I can tell people really want to get to the 
problems and work together. I couldn't figure out in Sago and 
Aracoma how we could have the feds doing their thing, meaning 
MSHA being the federal, and the state doing their things where 
both reported inspections to you, though. I'd say why weren't 
we sharing information? Why don't we share what one team had 
seen in a mine and why didn't we share it to see if it would 
benefit other people? Why are we having both teams focused on 
inspection but making no one--but again, this is all training.
    I don't know about the--I know the government sometimes, 
when we have a horrible, horrible tragedy or anything that 
happens, we will come back, whether it be state or federal, and 
pass pieces of legislation and have so-called word overkill. 
Well, the bottom line is, we know that if we don't act, what 
happens. We're all sitting here.
    But, on the other hand, if you talk to the miners 
themselves, those on the front line, you talk to good 
operators, how can you make mistakes, starting with the 
engineering, I mentioned that, your mines would have to--mines 
would shut down. You know, why didn't they have the top 
engineers looking and overseeing saying, hey, that's not a good 
plan for a mine, that doesn't make sense. This is much better 
and it's proven to work.
    Every seam is different. Some are different than others, 
but we don't have that type of oversight. I'm understanding 
now, the mines themselves, the mine companies hire their 
engineers to turn it in and it's supposed to be stamped off, 
and okay, looks good to me. I'll tell you for sure that's what 
they're telling me now.
    The other thing is that MSHA is basically only inspecting. 
Could we devote more of our time in the state on training, to 
make it safer? We have to look at a way we can correlate better 
with you. We're going to mine coal in West Virginia. This 
country needs coal. We can do it better.
    And I think working together now, developing a plan that 
really makes sense, having these men here on the front line, 
34, you look at the experience just sitting here, having them 
tell you. If I had a guy come in and tell me this, this and 
this and work with him, if I could sit down on a review period 
or panel, how about when the inspecting team comes in? 
Shouldn't there be a cross-section of the miners sent down for 
exit so you can walk out after your inspection and say this is 
what we saw, what do you have to say about that? No one's ever 
enforced that, no one's ever asked them to do it or ever been 
involved. Some mine operators do it voluntarily, some don't do 
it at all, or won't do it.
    And I'm not blaming them, I mean, everybody says why do I 
have that attitude coming in here? Well, I sit with the 
families. I know. I was a family member sitting there for a 
long time wanting to know in that vein what happened over 20-
some years, what happened in Farmington with my uncle and all 
my friends. And I want to make sure that when we're done, we 
know exactly what happened and we have a third-party, if you 
will, that has the expertise that says we confirm and we're 
disagreeing until we get an answer.
    Mr. Kline. I very much appreciate your saying you're 
working very well with MSHA and I understand the Secretary and 
Assistant Secretary here are observing, so I won't ask for 
their input here. But I guess at the heart of the question is 
sometimes agencies work really well together because their 
personalities work well together, and sometimes they're doing 
that in spite of how they're set up and the legislation that 
controls them. So, the question for us is, we're going to go 
forward and we're going to look at this and see if this is an 
issue, a situation where it might not work so well if it 
weren't for personalities. That's something apart of what we 
ought to be addressing in whatever legislative action we take.
    Governor Manchin. I'll make a recommendation. We definitely 
will. Our state probably depends more on MSHA than any other 
state as far as coal mining, and with that being said, we think 
there are things you could do better. We think there's things 
that we could do better and there's certain things that we 
think that we do that we shouldn't be doing and probably vice-
versa.
    I would be happy to go down through the list. And I will be 
consulting with experienced miners and look at what we do. And 
I will give you a complete written recommendation of what we 
believe should be done and what we believe we should--everybody 
right now is afraid to make any changes because they're saying 
if I have an inspector, they'll think we're becoming lax on 
inspection. If we devoted more time towards training and 
working on safety and knowing that we had the force of law with 
one inspection, I've heard this many times, but no one will 
ever speak about it in public. They're concerned and will say 
we're not tough enough on crime. You'd have to be smart and we 
have to be smart as far as our mine safety. And if these 
gentlemen think it takes two agencies and it takes this and 
that or if it takes three--but that's why I say, if you 
empowered the miner, you've got the greatest inspector at all 
times at the front line 24/7 protected by law. And then we 
could make sure that everyone can do their job much better.
    Mr. Kline. Governor, I was busy writing down here one of my 
marginal notes, Bureau of Mines are now closed, their review 
plans. What happened? As I said, others are writing down much 
more extensive notes and this is all a matter of record and 
we're going to need that input as we go forward. Just another 
question again. I know I can't put you on the spot, although 
that's sort of our job up here, but I'll try not to do that. 
Can you give us any indication of when Mr. McAteer's 
investigation will have something that would be useful by you 
and us?
    Governor Manchin. He's coordinating Sago and Aracoma-Alma 
mine. He's coordinating with MSHA and the state, also, but he's 
doing it independent, looking at everything he possibly can and 
reports back to me. And I don't have a timetable right now. As 
you know, they can't even get in the mine.
    We're told by June the 2nd, fairly soon here we might be 
able to go up and inspect it, the long wall, to see if the 
readings are sufficient to get in and do the job. That's what 
I've been told. Until that's safe, until he's able to get in 
with his inspectors and be able to tell me, that's what he did 
with Aracoma and Sago and pretty much coincided with where MSHA 
was going at that time and also the state was going. But it 
just gives the extra comfort level for me to see independently 
and go back and talk to the families and have a report. Even 
when it's all said and done, there's going to be people with 
different theories on this, but I'm hoping this will be very 
conclusive of what happened.
    Mr. Kline. Thank you, Governor. Again, thank you all. I 
yield back.
    Chairman Miller. Mrs. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman, and thank you, 
witnesses, who were marvelous. You are marvelous. We were 
listening to every word that was coming from you. This is the 
Ed and Labor Committee of the formal Committee. Labor meaning 
we're responsible for the National Labor Relations Act, et 
cetera, to protect workers who want to organize. So I have, 
it's appropriate for me to ask this question. I'm going off 
base just slightly, but when working for a union mine gives you 
voice and safety, why isn't Massey organized? What did they do 
to the organizers? What goes on? It is Mr. Cook? Who wants to 
answer that? Turn on your microphone, please, Mr. Cook.
    Mr. Cook. When you give the people the right to refuse to 
do illegal findings, then they're going to not produce as much 
coal, and that's the name of the game, profit, to Massey. And 
that's the reason they don't want the union in there. They 
even--I had a brother-in-law that worked for Massey in '95 and 
was killed, and he said that they showed anti-union films as 
part of his orientation in that mine.
    Ms. Woolsey. But this is the 21st Century and many of you 
all have great educations, so you know better than that. You 
know that if you organize--listen to me I'm going to organize 
you. As a group you do have a bigger voice than Massey, so what 
did they do that intimidates the workers so that this is not--
you don't have that protection?
    Mr. Cook. You can go to any mines and organize and they 
have a vote. If they vote it in, you know, over 50 percent, 
then they're union. But Massey says you vote us union and we'll 
shut down. So you're out of a job.
    Ms. Woolsey. But those are threats.
    Mr. Cook. The non-union mines pay more money. Pays--
basically, they give them more money, bonuses for loading coal. 
We don't get that. Because it's incentives for producing coal 
over safety. So the union does not allow us to have bonuses.
    Ms. Woolsey. Well, okay. Let me ask the question a little 
bit different. Not about the unions. Are you able to call MSHA 
and report directly and anonymously or individually what you 
see going on in your workplace?
    Mr. Cook. Anyone can call MSHA anonymously, union or non-
union.
    Ms. Woolsey. Okay. And what is the response when that 
happens?
    Mr. Cook. Usually MSHA will come out and check out your 
problem. Or the state, either one will come out and check out 
your problems. The procedure that goes on in a non-union mine, 
I couldn't tell you that because I've never worked at one.
    Ms. Woolsey. This leads me to you, Governor. The certified 
mine teams, who would they report to? Who would have to respond 
to them after they come up with good ideas, and does MSHA and 
your state complement, do they have the staff and the resources 
to actually react and respond to everything that they would be 
hearing? I mean, it's my understanding that Massey has over 600 
citations, MSHA citations.
    Governor Manchin. First of all, the first thing we could do 
after 5 days sitting would be heard, Congressman Rahall was 
with me, the first thing we did was organize our hotline and 
expand out hotline. We've had a hotline, but I wanted to make 
sure we could tie it in with advertising, people knew they were 
empowered. I didn't want any worker in any workplace associated 
with miners thinking they could be in a situation and not be 
pointed to us.
    I would like to think that between MSHA and the state--and 
we're talking serious violations, okay? You hear so much and I 
don't know enough about how violations are written except that, 
when there's ventilation, when there's ignition, when there's 
belts, when there's fans running, things that cause serious 
injuries or death should be the highest priorities and there's, 
you know, a few of those. And those should be the highest alert 
that anyone should be on and if someone calls and we have a 
roof that hasn't been bolted, we have a belt, we have that, 
they should be able to go.
    Ms. Woolsey. Well, do they have the resources and the 
staff?
    Governor Manchin. I believe we do. We put in more and you 
all put in more and the bottom line is, are we over-
bureaucrating it, if you will? I don't know enough and I can't 
sit here and tell you that----
    Ms. Woolsey. I don't know how we'd be over-bureaucrating--
--
    Governor Manchin. Well, the bottom line is, what do you 
consider a violation serious enough here? If someone calls 
about ventilation? Ventilation, you know, is going to kill 
somebodybecause, with that, then you get methane built up. If 
you're not rock dusting and you're--I don't know why for the 
last 40 or 50 years, we've only rock dust intake at 65 percent 
and everything else is 80. We immediately put an order out and 
said 80, we're going to do it by law. That should be common 
sense. Why didn't we do it before? You know, I'm not blaming 
anybody.
    But the bottom line is, let's face it, when you say there's 
a ventilation problem, there's a rock dust problem, there's a 
roof bolt problem, those are things that kill people. That 
should be the first thing. I would think that would be a red 
flag for our state and also for the feds.
    Now, the other types of violations, 6,000 violations, how 
can you have 6,000 violations on ventilation and rock dusting, 
you know, seriously, and we don't have enough resources, and a 
lot of those violations are serious where people are hurt or 
killed and just operational, the professionals can speak to 
that more than I can.
    Ms. Woolsey. And my time is up. I suppose we'll go around 
again?
    Chairman Miller. It's the intent of the Chair, I'm going to 
go through the members of the Committee. I'll to Mr. Altmire 
next and then Ms. Shea-Porter and then we'll go back to the 
delegation, starting with Mr. Rahall, Ms. Capito, back and 
forth. Mr. Altmire?
    Mr. Altmire. Ms. Peters, you spoke about Dean's experience 
in the 13 years that he worked at Upper Big Branch, and you 
said that he had expressed many concerns about ventilation and 
had reported to Massey at least seven times that you were aware 
of. When did he first express these concerns? Was this 
something he noticed more recently, and was there a progression 
of concern in the recent years?
    Chairman Miller. Ms. Peters, if you could pull your 
microphone?
    Ms. Peters. It happened a long time before this happened. 
We had, me and my daughter, it went back to Don Blankenship, 
and told them about the men that didn't have any air. And I 
don't know what happened, but my son-in-law, he would be 
driving and go to sleep and he would go to sleep coming from 
work. And they said, the doctors said it was because he wasn't 
getting enough oxygen and they said it was when the men came 
out on the mantrip that, not the day this happened, but most of 
the men went to sleep.
    And he called, I don't know how many times, 2 or 3 days 
before this happened, he called and asked them and told them he 
needed air. And one of the men from Performance Coal told him 
you know coal. See, they wanted a 150 feet each day and they 
were unable to get that and keep all the curtains up and 
everything. So he told him, he said you go ahead and close the 
section down. He closed it down, but he told him he would fire 
him. He said you pack your bags and leave.
    Mr. Altmire. Mr. Morgan, you said that Adam had also talked 
about the ventilation problems at UBB in the short time that he 
had been there. And what did your experience tell you? What was 
the advice that you gave to him when he first came to you to 
talk about that?
    Mr. Morgan. Talking about the ongoing ventilation problems, 
he'd ask me questions about it, you know, about this. If you've 
got this, where the long wall miner's in a turn, one time he 
asked me, he said, ``Ain't these curtains supposed to be up, 
Dad, over here?'' And he explained it. And I said, ``Yeah, all 
that has got to be up for the ventilation.''
    And he said, just about every shift he worked he had to do 
some kind of ventilation repair, you know, and some like I said 
he done on his own, which, you know, you're a trainee in a 
mine. He shouldn't be the one to have to know. Somebody there 
should know a lot more than he did.
    Mr. Altmire. You mentioned on that point, if I heard you 
correctly, that he did speak with one of his superiors about 
that and was given sort of a dismissive reply that, if you're 
worried about that kind of thing, maybe you should look for 
another line of work?
    Mr. Morgan. Yeah. They told him--a long wall coordinator--
--
    Mr. Altmire. Are you comfortable sharing with this 
Committee the name of that individual?
    Mr. Morgan. Yeah. I don't see why not. Jack Rolls is his 
name. That's when he told him if he was that scared or whatever 
doing his job and stuff that he needed to rethink the job.
    Mr. Altmire. Mr. Stewart, you have been at UBB for 15 
years; is that correct? You talked about the violations that 
you saw and the concerns that you had. Similar to the question 
I asked Ms. Peters, is that something that you saw that was 
more progressive in recent years? That it was getting worse as 
time went on?
    Mr. Stewart. As far as the long wall goes, it was just--we 
never had proper air on that long wall. The type of ventilation 
we used, we'd get down close to where you was finishing the 
panel and that you normally didn't have much air because they 
return it into the crib area and I believe it gets blocked.
    I've worked where you can't see your hand in front of your 
face all day long. As far as the miner section goes, yeah, in 
the past year, we've had problems with it more recently. And 
I'd like to touch one fact that I don't know if this pertains 
to your question, but we were made to turn crosscuts into the 
intake for awhile. This came from the president of the company. 
And we said, hey, that's against the law. You're not supposed 
to punch a crosscut through in your intake--you're supposed to 
turn it the other way. It's against the mine law. But the boss 
said no, he said do it this way. So that's the way we did it. 
Probably done about 25 like that before he finally said we 
could do it the right way. Now, why we were doing it the wrong 
way, I have no idea. Yeah, they've been--I think the 
ventilation got worse in recent times this past year.
    Mr. Altmire. Thank you, Mr. Stewart. Thank you, Mr. 
Chairman.
    Ms. Woolsey. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. Thank you to all. I'm going to 
read some testimony from another mine disaster when we had a 
hearing in 2007 and ask you about this. I would say at the 
time, ``Did somebody come to the mines quarterly or monthly and 
remind everybody, we understand the politics in this mine is 
tough. We know that you risk losing your job if you speak up, 
but we're going to provide some protection and anonymity and 
then we'll follow up. So, if you lose your job within 6 months 
or a year, we'll be standing alongside you and make sure that 
the people who punished you for speaking up pay the price. 
Otherwise, all we have are reports on a shelf and then we have 
families with pictures again.''
    So I'd like to start with you first, Governor. This is a 
different Governor. Is there some way for miners or their 
families to be able to reach out before the accident, and do 
you offer protection for them, whistleblower protection? 
Another mine disaster.
    Governor, I love your idea of having somebody in that mine. 
But let me ask you for right now, is there an ombudsperson? 
Could there be somebody from your state, if there isn't, that 
would go into these mines monthly and remind the workers that 
you're actually there standing for them and they have a place 
to turn to?
    Governor Manchin. I just asked Director Ron Wooten, because 
the question was asked by Ms. Woolsey about the resources, and 
we do, and they do, respond to every request. From the 
standpoint, my idea is based around if you have the people who 
will work and you have the most experience in someone on 
ventilation and someone on rock dusting and someone on roof 
bolting, and those are the most experienced people, they're 
working there every day. That would be the team. I understand, 
among all the mines, in almost all the mines, they have their 
safety teams, and a lot of the good operators can empower and 
they do empower the miners to pull the plug.
    So, with that being said, you've got to make sure we do 
interact before we react. Because reaction is what we're doing 
now and that was in 2007, I think I know where that was, and 
ours was in 2006, and it continues on. How a person cannot come 
forward unless you give them the power of the law and criminal 
proceedings against the hierarchy, the corporate hierarchy, all 
the way up. If it just stops at the foreman, you can go find 
another foreman. But if it goes clear to the hierarchy as far 
as the corporate structure. from the CEOs to the Board of 
Directors, people knowing that this is our standard operating 
procedure. This is what we voted on. This is how we're running 
our company. Unless they feel they're protected by the 
corporate veil when we can't get there, I'll guarantee you it 
won't change.
    Ms. Shea-Porter. So what we hear today is fear and I think 
about all the people in the community who heard these stories. 
Now I remember a woman who lost her family member saying the 
mine was speaking to us. The mine was speaking to us. And what 
I'm hearing here is essentially the same thing. But somehow or 
another, what you know and who you tell, it just falls silent 
someplace. And so I'm not sure. I don't work in that 
environment. But I know one thing. I know that everybody in 
that mine needs to know that they can, if they stand together, 
that they won't lose their job in 3 months or 6 months.
    So let me ask somebody who's been working the mine. Mr. 
Morgan, when somebody's hired in the mines, are they given the 
information about, this is the number that you call, here's an 
ombudsperson, here's a magnet you can put on your refrigerator? 
Is there some way that the signal comes to the worker and the 
family member that we really mean business here? Here's the 
information. Because, how can you go to a wall, for example, to 
see the number that you call up to report trouble, tells 
everybody that you're looking for a number to report something. 
Is there something done proactively when you're hired that 
makes it safe?
    Mr. Morgan. Like you say, on the board, all we've got is a 
number and we can call it.
    Ms. Shea-Porter. It's on the board? So if you walk up to a 
board, somebody might see you?
    Mr. Morgan. Yeah, you know, you get the number off the 
board and take it home, you know, the hotline number and stuff 
like that, you'd have it handy then.
    Ms. Shea-Porter. At the time I said maybe you should be 
given a card and a refrigerator magnet when you're hired so it 
goes home to the family members, it goes home and you don't 
have to possibly identify yourself. We've got to do better. I 
know now that we're all working to do that. This is really very 
familiar.
    Governor Manchin. Public service announcements, as you 
know, we've stepped those up. And also the hotline, making sure 
everyone that calls in is absolutely protected, a secure line. 
We're doing more of that. We're starting to get phone calls and 
turning the mines in to the state inspectors and MSHA. The feds 
all have hotlines also and they say the hotlines are posted in 
every mine.
    The bottom line is, if a person has nowhere else to work 
and they feel that that unspoken threat is there--these are the 
bravest human beings you ever--the families are the strongest 
human beings. Their will to survive and will to provide for 
their families, you've heard some testimony, just a few. It's 
unbelievable, and we should never allow this to happen.
    And so, from that standpoint, we want to work with 
everybody in Congress. We're going to move forward as quickly 
as we must in the state of West Virginia, but we don't want to 
go along a path that's not parallel to what you all are doing 
either. But if we can move faster, we will, and we'll be 
prudent as we can and we think basically the protection of the 
corporate veil right now is to the point where we're not 
getting to the crux of the problem.
    Ms. Shea-Porter. Thank you for your great suggestions. I 
yield back.
    Chairman Miller. Thank you. Mr. Rahall?
    Mr. Rahall. Thank you, Mr. Chairman. As you know, Chairman 
Miller, this week in the Committee that I Chair on natural 
resources, we will begin hearing on the oil rig disaster. 
Minerals Management Service, which is to the oil industry what 
MSHA is to the coal industry, comes under the jurisdiction of 
our national committee. We'll also have BP, TransOcean.
    However, what strikes me here is, after hearing testimony 
last week before the Senate Appropriation Subcommittee, hearing 
our senior Senator conduct some tough questioning, it appears 
to me that BP, TransOcean, Halliburton, and Massey have all 
hired the same public relations firm. And the strategy is to 
point the finger at the other guy.
    That seems to be what happened last week in the Senate 
Committee. Massey's saying it had a conflict with MSHA over a 
ventilation plan. Don Blankenship said that Massey engineers 
thought the plan that MSHA had Massey implement at UBB was 
unsafe. Now, I'd like to ask the panel, if you were the 
operator of a mine, and you thought the ventilation plan that 
MSHA gave you was unsafe, would you continue to operate that 
mine?
    Witnesses. No.
    Mr. Rahall. Is that a unanimous no? All right, I think I 
heard all six of you testify no. Let me ask you, and I believe 
I just heard the Governor say this, would a good operator where 
safety is indeed the number one concern for that operator, 
allow the coal miners to shut down the operation? Is that an 
accurate statement or no?
    Mr. Stewart. Could you say that again?
    Mr. Rahall. Can a coal miner by himself in other 
operations, other than Massey, shut down a coal mine if he or 
she feels it's unsafe?
    Mr. Cook. You mean the whole coal mine?
    Mr. Rahall. Yes.
    Mr. Cook. No.
    Mr. Rahall. What about at a union mine?
    Mr. Cook. You can't shut down the whole mine.
    Mr. Stewart. You can remove yourself from unsafe 
conditions. You can't shut the mine down.
    Mr. Rahall. Okay. Are Massey employees required to sign as 
a condition of employment a ``quit statement?'' Are any of you 
familiar with a quit statement? You're shaking your head yes, 
Mr. Mullins?
    Mr. Mullins. I've heard that. When I worked for them I did 
not have to sign one, but I know of men that did have to sign 
one.
    Mr. Rahall. And what is a quit statement?
    Mr. Mullins. It's a statement they agree to quit and they 
keep it in their file and whenever they want to get rid of 
them, they use that to get rid of them.
    Mr. Rahall. It gives them ground to get rid of that person?
    Mr. Stewart. They do have an enhanced agreement, have you 
heard of that?
    Mr. Rahall. Yes.
    Mr. Stewart. You're aware of the ``enhanced agreement.'' I 
call it a slave labor contract.
    Mr. Rahall. Would you explain what that enhanced agreement 
is?
    Mr. Stewart. The enhanced agreement is the coal market 
opened up a few years ago, in '03 or something like that. And 
they went to losing employees in droves because, you know, the 
men were sick of putting up with things from it. Anyway, in 
order to keep their employees, they came up with what they 
called an enhanced agreement. Give everybody a pay raise, they 
sign it, they're guaranteeing you a job for 3 years. And it 
goes on to say that you can be fired for unsatisfactory work or 
anything, you know, but they're guaranteeing you a job for 3 
years. If you don't sign, you'll be working at will and you 
will not get the same pay raise that everybody else gets. So, 
you know, it kind of blackmailed the men in there making six 
more dollars an hour than you are because you won't sign their 
agreement. And you also, if you quit or were fired or whatever, 
you could not seek employment in a 95 radius of any Massey 
mine.
    I mean, this is America, isn't it? Now, I don't know if 
that would legally stand up. I don't think it would. But 
anyway, you know, the men sign it to get their pay raises and, 
you know, a lot of them probably figure, well, they own me now. 
So that's the enhanced agreement. I can get a copy of it for 
anyone who would like one.
    Mr. Rahall. Would you submit a copy of that to the record? 
Mr. Chairman, I'd like for him to submit a copy of that to the 
record.
    Chairman Miller. Yeah, without objection. It would be 
included in the record here.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mr. Rahall. Thank you, Goose. Let me ask you, while you're 
speaking, and before I run out of time. At the same hearing 
last week, Mr. Blankenship was asked if he knew of miners that 
requested transfers from a mine due to their concerns about 
safety. He said he did not know of any such instances. Without 
mentioning any names, do you know of any miners who have sought 
transfers from UBB due to safety concerns?
    Mr. Stewart. Honestly, I don't know of any personally that 
had.
    Mr. Rahall. Any other members of the panel?
    Mr. Mullins. Yes. Grover Skeens. One of the victims in 
there. His sister told me that he went to management and told 
them that he felt that something bad was going to happen and 
that he requested a transfer and they denied him that transfer.
    Mr. Rahall. Where is he working now?
    Mr. Mullins. He was one of the----
    Mr. Rahall. I'm sorry, I'm sorry. You're right.
    Mr. Stewart. Excuse me, I'm sorry. My former boss quit 
about 2 months before the explosion due to concerns because he 
would go outside and tell upper management that we had low air. 
I worked at Head Gate 22 Section where Dean did. And nothing 
would be done. He got scared, not only for his safety, you 
know, he got scared, you know, that he was going to get in 
trouble himself if something happened. So he quit. He didn't 
ask to be transferred.
    Mr. Rahall. Who was that?
    Mr. Stewart. Richard Hutchins.
    Mr. Rahall. Okay. I think my time is up. Thank you.
    Chairman Miller. Congresswoman Capito.
    Mrs. Capito. Thank you. I would like to thank you all. Some 
of the suggestions that you've already brought forward, I 
think, are very good ones. First of all, the one that mentioned 
having MSHA inspectors inspect on the weekends and on the 
evening shifts makes great sense. I'm surprised it hasn't been 
done already.
    The other one is the pre-warning for when the inspector is 
coming. We all know there are guard shacks, you know, to get up 
onto a mine site, for safety reasons. In discussions I've had, 
I think MSHA has already started to make some adjustments 
there, but in this day of technology, I don't know how you cut 
off communications, and that's going to be a tough one. But 
hopefully, that's something we can work on. Simplistically, let 
me ask you this, Mr. Stewart, and give me a sense of--
ventilation, obviously, is the issue here. During a shift--do 
you work an 8- or 10-hour shift?
    Mr. Stewart. Ten.
    Mrs. Capito. During a 10-hour shift, how many times could 
the ventilation change and shift during a 10-hour shift? Or 
does it change week to week or--could you just give a sense of 
that?
    Mr. Stewart. Well, it shouldn't change. You should have 
plenty of air. But on our section there would be times, you 
know, we would go in and there wouldn't be any air. And then 
you would have a little bit. It would fluctuate.
    Mrs. Capito. Would that be because of the curtains--?
    Mr. Stewart. I'm talking about our main intake.
    Mrs. Capito. The main intake?
    Mr. Stewart. Right.
    Mrs. Capito. You mentioned water, too, is a problem. 
Somebody mentioned.
    Mr. Stewart. Yeah, water was a problem on the long wall. 
That's what I'm talking about. They ventilated, they returned--
their return went in by where the roof fell in and they had 
water problems. I suspect it roofed out, which would allow a 
large area for possibly methane to accumulate.
    Mrs. Capito. So basically then, how often in this 
particular mine--MSHA is required to inspect four times, but at 
this particular mine, MSHA was on site much more than four 
times? Does anybody know, or you weren't there?
    Mr. Stewart. They were there on a regular basis.
    Mrs. Capito. Monthly, weekly?
    Mr. Stewart. I worked eight to ten. Like someone stated 
earlier, they weren't on the evening shift much. But I did see 
them fairly regular, so I had a couple tell us, you know, 
``hey, guys, if you all need to tell us anything, just in 
passing by, you know, just let us know,'' you know. I thought 
that night that he knew, you know, if we were caught going to 
an inspector, we were going home for good. But, you know, he 
was trying to give us a hint, you know, get him the word on 
whatever. I appreciated that.
    Mrs. Capito. Let me ask the rest of you all that mined in 
deep mines. When ventilation shifts like this, and you shut it 
down, can you correct it in a matter of hours or is it 
something, you know? Give me a time sense on that.
    Mr. Mullins. It depends on what kind of ventilation problem 
you're having. I mean, you could have had stoppings knocked 
out. If it's a matter of stoppings being knocked out, then 
you've got----
    Mrs. Capito. That could be small or large?
    Mr. Mullins. Yeah, that could be small or large.
    Mrs. Capito. I think--go ahead. I'm sorry.
    Mr. Mullins. If you've got water in the gob area, like 
Goose is talking about, in the return area, blocking, then it 
could be hours or it could be up to a day or two to get a pump 
back there, get pumps set up to pump the water out, to open 
that area up so that air could flow. It's different.
    Mrs. Capito. It varies. One of the reasons I'm interested 
in this is because of one of Governor Manchin's suggestions on 
having somebody on task at the mine, you know, at all times, 
working at the mine, correct? MSHA can't be there every minute 
to see the shift changes and safety should be the culture, 
shouldn't be a chilling effect. And if you go forward with a 
concern about ventilation or anything serious, that you're 
going to be retaliated by job loss or loss of your insurance 
when you have a child, you have to have this insurance and many 
of us understand that as well.
    And I guess what I'm wondering, in the broader sense, you 
all worked a lot of different mines. Is this a culture that--I 
mean, is this a concern that's pervasive? The morale has got to 
be low in terms of across the industry when you get a gut check 
like this, losing so many lives. But in terms of being more 
aware, being willing to come forward, being willing to 
whistleblow, being willing to pay attention to what ventilation 
is doing at the time, all the different signs of the methane 
gas, do you get a sense that things, you know, how is the 
general sense in the mines right now? And you all haven't gone 
back--well, you did, Mr. Morgan, go back again. In one of your 
discussions, and I know you've got a lot of friends and 
relatives who work in the industry.
    Mr. Morgan. Where we worked at, the morale was pretty good. 
Everybody knowed they could go in and work safe. They don't 
have to do nothing illegal or, you know, to be punished for it. 
It's just--I worked other mines, too, and I could tell a 
difference when you go back and forth to each mine.
    Mrs. Capito. So each mine has its own personality?
    Mr. Morgan. Yeah, they do. When you're talking about the 
ventilation, when he was talking about that and water and 
stuff, too, a lot of times the ventilation, they'll cut down 
substantially. Like you say, you can notice it sometimes just 
by seeing it. A lot of your men won't know it and your foreman 
will have to take air in and if he tells you to go up there, 
like if you're running a continuous miner in the long wall and 
he tells you to go in there and cut coal, he's supposed to tell 
you how much air is behind that line there. If he tells you 
you've got the required amount, that's all you go by. You're 
taking his word, so if he's a couple thousand feet short on his 
CFM, what he's supposed to have, and he tells you you've got 
it, you don't know until you go in there and mine and you get 
gases. That's the only word you've got to go by unless you take 
an air reading and air monitor. Everybody ain't got that.
    Mr. Cook. As far as Mr. Stewart talking about the 
ventilation from the long wall being pulled to the job, that's 
what ours is. And we had people that walked that perimeter 
every day. They checked for methane in the mine and they 
checked for air. It's a good system if it's done right.
    Mrs. Capito. Thank you, Mr. Chairman.
    Chairman Miller. Congressman Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. There's been an 
awful lot of testimony about questions about ventilation. I 
have a few myself. Mr. Morgan, you testified that Adam would 
talk about the curtain, the intake side feeds the long wall 
face would be removed on a regular basis?
    Mr. Morgan. Yeah.
    Mr. Mollohan. Mr. Stewart, Mr. Quarles indicated that there 
would be code words for men on the property and that meant an 
inspector was around. My question is, first of all you have a 
ventilation plan that has been worked on, probably by a lot of 
different people in the mine, and it's been approved by federal 
and state inspectors; is that correct?
    Mr. Stewart. Yes.
    Witnesses. Yes.
    Mr. Mollohan. And that ventilation plan in this mine, do 
you feel as approved, if followed, it would have been adequate 
to ventilate the mine?
    Mr. Cook. I don't know what they had.
    Mr. Stewart. It should have been adequate, but for whatever 
reason, you know, I'm not in management. They couldn't get the 
air to the section. I don't know what problems they were 
having. They kept putting up double doors all over the mine, 
you know. I don't know if they needed to add another fan. I 
really can't answer that. But they just couldn't get the air up 
to the sections it was needed.
    Mr. Mollohan. Was that on a regular basis?
    Mr. Stewart. It has been the past year.
    Mr. Mollohan. You've described a number of ventilation 
plans, ventilation problems, number one not being able to get 
enough air on the section, and you're talking about some saying 
that the curtain was taken down and that obviously was 
intentional. You're talking about men working when they were 
changing from a sweep to a split. And directing air into the 
gob, which you just said was okay if it's done properly and 
there's no obstruction.
    But if you're having all these conditions, when--and are 
these conditions such a nature that an inspector, a federal or 
state inspector arrives at the mine, and there's notification 
that there's a man on the property, are these the kind of 
conditions that could be corrected before the federal or state 
inspector gets down to the area in the mine?
    Mr. Stewart. Not all of that, but what they liked to do was 
like, you know, misdirect the inspector somewhere else. Say, 
they go check this, whatever, and on several occasions in the 
past year we have been withdrawn and the mine has been shut 
down. And whatever they did while they had a closure order on 
it, they done enough to get the inspectors to okay it to go 
back in. It wouldn't last.
    Mr. Mullins. They have regulators in your intake that you 
can regulate your air through to certain parts of the mine 
where you want it, and if you can't get enough air to one 
section, you can open up a regulator and send more air that 
way, but in doing that, you may take away from this section. 
So, yes, they can control the ventilation, somewhat.
    Mr. Mollohan. But your testimony here today is that it was, 
or let me ask you, was this effort to correct conditions before 
an inspector got into a problem area, was that on a regular 
basis, was that infrequently, was it----
    Mr. Mullins. I really can't answer that, because I left 
Massey 3 years ago and went to another company to work, but my 
brother remained there.
    Mr. Mollohan. Did he ever talk about that?
    Mr. Mullins. No. The only thing my brother said, I talked 
to him Easter Sunday before this happened, and the only thing 
that he said to me was that all they thought about there was 
running coal. The president of the company, I think was Chris 
Blanchard, he didn't like him very well and he said all he 
cared about, and he didn't care nothing about safety and stuff, 
all he cared about was production. He wanted to run, run, run, 
no matter what the conditions were, you run.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Chairman Miller. Senator Rockefeller?
    Senator Rockefeller. Thank you, Mr. Chairman. It just 
occurs to me listening to your very, very frank testimony and 
on the point about what ought to be done and what the problems 
are, that fear is a terrible, terrible thing to live with. But 
they've got you. Because they pay you $60,000 or more, so 
what's a fellow to do? Gonna walk off the job? Gonna try to 
tell somebody there's something wrong, one of the management 
people? What are you going to do? And they know that. So 
they've got you.
    Now, that's part of Appalachian culture. I'm not sure I 
like it, but it goes back 100 years, the way companies operate. 
All this reminds me--I wasn't here 100 years ago, but I was 
here 50 years ago, and it was sort of like the same thing. So I 
want to make these points and ask questions.
    The, you know, my conference committee in the Senate, we 
conducted the hearing on Toyota. As you know, Toyota had some 
safety problems and we went after them pretty hard and now 
we're doing legislation that affects all car companies and it's 
going to be tough legislation. But one thing Toyota had at I 
think most of their production facilities, and I assume they 
still do, is if any single worker felt that something was going 
wrong on that line, and I've seen this, all they have to do is 
reach up and pull a string or small rope like that. The entire 
line shuts down. And immediately somebody in management comes 
over to find out what the problem is. And you don't start up 
until the problem is fixed. That's the way to do that.
    People talking about British Petroleum and this oil spill. 
They take their CEO and took full responsibility, full 
responsibility. No American taxpayer is going to pay one dime 
for anything we did. He took responsibility as a CEO, which 
means that the Board is involved.
    We don't do that in this industry. Everybody--oh, we've got 
all these experts. They know more than the federal government. 
They know more about ventilation than the federal government. 
The federal government isn't on the line all the time. We are, 
we know.
    Well, maybe that's true, maybe it isn't but, you know, the 
pressure is on those folks who are the experts, too, and if 
production is issue number one, their expertise doesn't mean 
anything.
    So if you get these conflicts between MSHA and, you know, 
the folks in the mine company about what constitutes good 
ventilation, I'm really struck by the amount of conflict. Well, 
they don't know what they're talking about. We've got a plan.
    In the meantime, the ventilation is what takes away the 
methane, takes away the rock dust, all the rest of it. The 
ventilation is key, you've all made that clear. But what's to 
be done about it? Massey said we're the experts. Experts are 
only good so long as they can exercise what they're expert at, 
and I don't think that's the case.
    The CEO and the Board of Directors have to be involved in 
the consequences. I really believe in that. I really believe 
that there ought to be something akin to that Toyota pull down 
the rope. And the closest thing so far is the whistleblower. 
And I think that ought to be a part of it, a part of the new 
legislation with protections. But one of you said, ``yeah, 
we'll have a whistleblower, but they'll be able to get around 
that.'' Who was it that said that? One of you did.
    Mr. Cook. As far as fired?
    Senator Rockefeller. Yeah.
    Mr. Cook. Yeah, they'll find something.
    Senator Rockefeller. Well, tell me.
    Mr. Cook. They can find anything. If you blow the whistle 
and they find out about it, they can fire you for being an 
unsafe worker. They can fire you for having----
    Senator Rockefeller. Make up whatever they want?
    Mr. Cook. Yeah, they can make up whatever they want, or 
they can dock you so bad that you want to quit.
    Senator Rockefeller. So, Mr. Chairman, that's something 
we've got to look at very carefully and make sure we get right 
so the protection really is there.
    Mr. Quarles. Sir, 2 months down the road they're having a 
layoff and you'll be laid off, when they're still interviewing 
people to be hired.
    Senator Rockefeller. When the market is down, they'll use 
that.
    Mr. Quarles. You'll be gone some way or another. If you do 
anything toward them, some way or another, they will get rid of 
you.
    Senator Rockefeller. Isn't it possible, if I don't 
question, Mr. Chairman, isn't it possible, I cannot believe it 
is not possible to have ventilation as object number one, 
solving the ventilation problem and the whistleblower problem, 
so miners are people again, not serfs? They've got a 
whistleblower, they've got protection, they're people. You're 
the ones down there, you're the experts and you learn from 
experience.
    Management may have all the engineering degrees from Penn 
State or whatever they want, but they're not down there the 
same way that you are. You learn through experience what did 
work, what didn't work, or worked at certain mines, union, non-
union, whatever. But they've got to be able to listen to you.
    So final question, Mr. Chairman. When you talked--well, 
I'll use you, Mr. Stewart. You didn't say this, but I'll just 
use you. That miners--about inspectors being there on a pretty 
regular basis, and see that, really opens up a question to me. 
Pretty regular. If they're there and they're going to get 
caught as they cross the bridge to come in at the check-in box, 
unannounced or not, they've got to be there a lot. Was it every 
day, was it every few weeks, were they good, were they tired, 
were they working a 10-, 12-hour shift? I mean, I think a lot 
of this gets down to what the Governor talks about and that is 
bureaucracy.
    Let's face it, we've had some administrations that didn't 
really care a whole lot about safety. And, during that time, 
there wasn't a whole lot of pressure on inspectors to, you 
know, keep them in training and get out there and be 
aggressive. We have to have aggressive inspections, both state 
and federal. And state and federal have to learn how to work 
together. I don't have time to ask you this question, Governor, 
but we have to learn how to work together to maximize our 
efficiency and our presence in the mines. I don't think that 
was a question, but I wanted to make that statement. Thank you, 
Mr. Chairman.
    Chairman Miller. Thank you. It is not the intention of the 
Chair to have a second round, but if there is a member who has 
a question--I'm not going to have a second round, but if 
someone has a burning question. I think the panel--it is also 
the intent of the Chair in our discussions in setting up this 
panel, there were people who had some qualms about whether they 
were going to come before the Committee or not, and I think 
maybe your testimony may make it easier for somebody if there's 
somebody in the audience that's related to a family member, if 
they want to come up, after we dismiss this panel, I would be 
happy to give a couple of minutes. We won't have questions, but 
just people who think there's something that ought to be put on 
the record.
    If people are reluctant to do that, we certainly will 
recommend or we'll consider written statements from additional 
family members. Now that they see how this is unfolding, I 
think it's apparent to everyone how important this testimony 
about what people, unfortunately the victims here that were in 
the mines, were talking about prior to this accident. It's a 
very, very important component of our investigation. Mr. Kline? 
Is there any Member? Congresswoman Woolsey?
    Ms. Woolsey. I'd like to pass on just so people realize 
that we're not passive about this, it is very clear that we're 
going to strengthen the mining laws and we also are very aware 
that MSHA and the Department of Labor is aware that MSHA 
doesn't have enough inspectors on the ground. We're not up to 
par in terms of where we ought to be with the numbers for 2010. 
And we do acknowledge the bureaucracy.
    We need to strengthen our laws. The pattern of violation 
process has too many loopholes, and we want to strengthen the 
civil and criminal penalties to make it meaningful when we have 
penalties, make sure that laws are felonies and not 
misdemeanors. Of course, enhance the whistleblower protections 
so they're meaningful, and make sure that miners don't lose pay 
while a withdrawal order is in effect.
    So it's all about empowering miners. The Department of 
Labor is totally with you, and they also and we also recognize 
that safety teams can only work if supervisors or foremen are 
expected to make the fixes when there's hazards, and if they 
don't do it, that they are punished. So thank you, Mr. 
Chairman.
    Chairman Miller. Thank you. Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman. We may not all of us on 
this panel agree about everything that needs to be done or 
ought to be done in Congress, but we do agree that there's a 
problem and we ought to work on it. We do agree that it's part 
of Congress's job to take a very close look at the Department 
of Labor and MSHA and make sure that they have the resources 
they need and also that they're doing what they're supposed to 
do.
    I want to thank you, Governor. It's just terrific of you to 
take so much of your time and come here and share with us 
things that you're doing as a state and, of course, your 
support, love and support for the family members. And then to 
the family members again, thank you very much for your courage 
in coming up here today and the frankness of your testimony. It 
is indeed moving, as well as certainly informative. And again, 
thanks to my colleagues and all the people in the community for 
coming out here today. Mr. Chairman, I yield back.
    Chairman Miller. Thank you. Thank you very much. Thank you 
to all the Members of Congress for being here and for 
participating in this hearing. Thank you, Governor, for your 
time and your knowledge and your actions that have been so 
swift after these tragic accidents in your state. I certainly 
want to thank Secretary Solis for being here and listening and 
Assistant Secretary Main for all your work that you've been 
doing on this investigation.
    When we have one of these tragic accidents, very often in 
the Congress and you've heard it here again today, we have 
talked about the fact that this is an industry that makes our 
country strong, makes our country free. It is very clear to 
most of the public and certainly members of Congress that coal 
mining is not an optional economic activity.
    This country desperately needs the coal, the coal mines, 
and the miners to engage in this very dangerous occupation but 
critical occupation to the economy of this nation, the well-
being of this nation.
    I think today with the leadership of the Governor, the 
response of members of this Committee and we'll see the Senate 
and the investigations, nobody's drawing conclusions, but I 
think you can conclude that perhaps we have now drawn the 
understanding that the participation of miners in creating the 
safe workplace environment is no longer optional.
    Whether they're union or non-union, this has got to be a 
matter of policy. You should not put your life at risk or your 
family's life in jeopardy over the question of what is the 
threshold when you step in that mine, is it union or non-union? 
We have a lot to learn from the unions and there's a lot to be 
said for how they engage in safety practices, but the fact of 
the matter is, this is going to have to be a matter of policy.
    I think the Governor put his fingers on it. One with the 
certified committees but, two, with the bureaucracy. When we 
had our hearings earlier about the avoidance of--help me, 
staff--pattern of violation. You just wanted to go outside and 
scream when you were reading the manner and means by which this 
was enforced or not enforced or how it could be gamed or how 
the calendar could keep you from being a serious violator. Even 
though you were a serious violator, if you held on long enough 
and you sent enough lawyers to court, you would look like one 
of the safer mines in the country. That's just got to stop. 
That just is going to have to stop.
    It's very interesting in the preliminary work that MSHA 
did. They have a conclusion that this was, they did right after 
this accident at Big Branch and their conclusion is this. Today 
some mine operators can consistently, can consistently engage 
in dangerous violations of the law and then avoid the penalties 
by aggressively contesting every citation.
    That just goes to the issue of the citations, but the fact 
of the matter is, when you wind your way through this 
bureaucracy that for the most part was constructed with the 
serious input of the industry, that some mining operations, and 
we're not saying all, can consistently engage in dangerous 
violations of the law and men have to work in those 
environments. That just has to be unacceptable to us as a 
nation, and to us as Members of Congress, and I just can't tell 
you how important your testimony is to get an understanding of 
this environment.
    At an earlier accident, I was haunted by the testimony of a 
wife who spoke about her husband coming in the house late and 
describing how unnerved he was by the conditions at the mine 
and then how angry he was when he got up to go to work in the 
mine because of the conditions. And I just felt, as a Member of 
Congress, maybe that was the most important piece of testimony 
I've ever received around this set of circumstances because it 
told you all that you needed to know.
    He kept going back to that mine until it took his life. And 
she knew something was very wrong. He knew something was very 
wrong and they had no way to transmit it and to get it 
corrected without putting themselves in jeopardy financially, 
whatever their situation was in the community. And we're 
talking about a very, very serious and dangerous work 
environment.
    This mine we're discussing today, Big Branch, I've come to 
understand you've got to ventilate a million cubic feet of 
methane a day. That sounds like a ventilation plan that has to 
be seriously thought out and seriously enforced. That's not a 
casual amount of methane. So, again, thank you so very much. I 
know that several of you--Governor, you wanted to make a point. 
I'm sorry.
    Governor Manchin. I just wanted to thank you on behalf of 
the miners and the miners' families and the state of West 
Virginia and all people for you bringing this powerful 
Committee, but most prestigious Committee here and yourself, 
Congressman Kline and to your staff members and to our West 
Virginia delegation and all of you all for taking the time to 
come to West Virginia. We appreciate this more than you know.
    I don't mean to be derogatory at all when I say 
bureaucracy. We're all policymakers, but sometimes when the 
average person sitting here will say, ``well, we're talking 
about hiring more people, appropriating more money, is it 
really going to fix the problem?'' and I think they need to 
know that we're going to fix this problem. If it takes more 
people and money, that's what it will take. If it doesn't, and 
we revamp the laws we have, that's what we should do, and the 
bottom line is how they're empowered and protected and make 
sure that the corporate veil doesn't protect anybody from 
criminal wrongdoing when we know they did it.
    I think those are the things that we're talking about, and 
overlapping or redundancy. How do we complement each other 
rather than doing the same thing? Redundancy doesn't make a lot 
of sense. When you see different inspectors coming with 
different criteria, these are all things that can be fixed, but 
these are things basically that's evolved over the years, 
really, since Farmington, my hometown 1968, things started 
happening. Everybody was truly just trying to move in the right 
direction and if it got embargoed, if you will, it's time to 
fix it, and I think that's what we're hearing, and that's why I 
appreciate so much you all taking the time to come.
    And I know on behalf of all the men who testified and the 
wonderful mother-in-law who testified and probably knows more 
about her son-in-law than most people know, but these are 
wonderful people, they're good people, and they deserve to have 
the representation that you all are giving them right now and I 
appreciate that very much.
    Chairman Miller. Thank you very much. I think as I listen 
to you discuss bureaucracy and as I think about it, we know 
that laws grow up over time and there's a lot of 
inconsistencies and loopholes and over time you start playing 
them off against one another and you can never quite get it 
done. But we also know as Assistant Secretary Joe Main said 
when he came to our hearing earlier this year, he really told 
us about a system that had been conquered by the attorneys and 
if that system wasn't changed, it was going to crumble, and 
that was the system that was between safety and danger as it 
currently exists. I think we now recognize that what he told 
us, we have to act on, the system has got to change.
    I know that several of you witnesses here today continue to 
work and be employed in the mining industry, and I want to be 
very clear about something. Your testimony aids this 
Committee's oversight activity. This testimony we seek in order 
to better perform our oversight of disasters, like the Upper 
Big Branch, as well as better inform our legislative response.
    Attempts by any person to retaliate against you for your 
testimony are prohibited and would be viewed as an attempt to 
obstruct, influence, impede, or do improper exercise of this 
congressional Committee's power of inquiry.
    Your willingness to aid the inquiries of this Committee and 
the United States Congress are deeply appreciated. So I want 
you to understand that. That is your right, that is your 
protection, and we need to know if any such actions are taken 
against you or other family members. This is a formal 
congressional investigation and we're here to protect our 
witnesses.
    And without objection, all the members, the panel will have 
14 days to submit additional materials or questions for the 
hearing record. And before we adjourn--You're excused. If there 
are family members, and I'm restricting this to family members, 
who think they might want to add something given what they've 
heard here this morning, I would certainly welcome them to come 
forward and make a statement. This is without attorneys, so you 
all have to make up your mind here in a couple of minutes. 
Thank you so very much. You said you wouldn't know what to say 
when you got up here.
    Can we have a raise of hands, is there anybody that's 
interested? Mr. Long. Could we ask that conversations, can you 
take the conversations to the back of the room?

             STATEMENT OF LEO LONG, GRANDFATHER OF
                       RONALD LEE MAYNOR

    Mr. Long. My name is Leo Long. I had a grandson that was 
killed in the Upper Big Branch mine at Massey. You know, he 
stayed with me for years and years. I put him through school, 
he graduated, went to work. I seen him every day, every night.
    After he got married, he moved right beside of me and I'd 
see him when he'd come in of an evening from work from the 
mines. And I'd ask him about it. He said, ``Papaw,'' he said, 
``we have to work in water.'' I said, ``Ronald, why don't you 
just come on out?'' And he said, ``If I do, I'll be fired.''
    And he told me something else. I worked in union mines for 
30-some years, but I wasn't inside. I was an outside man. He 
told me that Massey, as soon as the inspectors would start off 
the hill, they would call back in and if they found a 
violation, the boss would tell them get back to work. If they 
didn't go back to work, they'd be fired. And he had to work in 
water. And he'd come home, he'd come home many a day soaking 
wet where they had to work in water.
    He had to leave his wife and two little kids, a little girl 
and little boy, one's eight and one's two. He left his family. 
I'm asking you all to please do something for the rest of the 
coal miners that's in the mines. I pray for it every night, 
every day. But if you all don't do something, something like 
this is going to happen again. But I beg you to do something.
    And he told me something else, he told me something else 
that the men up here didn't mention. He told me, like the 
methane, he said that the company had a way to bridge the 
continuous miner over to keep on working if the methane got 
so--when the methane gets so high, it's supposed to shut 
everything down. But Massey had a way to keep the continuous 
miner working, bringing coal out. Money come before the men 
did. You was only a number. They could get men back in their 
place. But I ask you all to do something, please.
    Chairman Miller. Thank you.
    Mr. Long. And I went to see a lawyer. I told him I did not 
want one penny from his estate because I gave him everything 
that I owned. It should have been me under the ground instead 
of him. It should have been, not my grandson. He was just like 
a son to me. But I do thank you all for listening to me. And 
please, whatever you do, try to get some kind of law passed so 
they can ventilate them mines.
    He would tell me the mine wasn't ventilated. He would go to 
sleep, as soon as he would get home and take a shower, he would 
go to sleep on the couch and just drop off and go to sleep, 
where he was breathing that gas, methane. But I thank you all 
for listening to me.
    Chairman Miller. Thank you.
    Mr. Rahall. Thank you, Mr. Long. As one who was at the site 
all week, I got to know Mr. Long pretty well. Mr. Long would 
stay outside in his car continually waiting for word. And 
you're quite a brave individual.
    Mr. Long. I stayed there five nights and five days.
    Mr. Rahall. You were there in your car five nights and five 
days. I know the Secretary made sure as well she had the 
opportunity to visit, Assistant Secretary Main visited with 
you. Everybody who was there came over to say hello to Mr. 
Long.
    Mr. Long. And he had to stay in that mines nine days. They 
called us, called the home. After they called his wife, they 
called us Tuesday morning, on that following Tuesday morning 
about fifteen after one and said Ronald Lee was the last one 
that came out, the last man out.
    Mr. Rahall. Yes, sir. Thank you, Mr. Long.
    Chairman Miller. Thank you.
    Mr. Long. Thank you for listening to me.
    Chairman Miller. With that, the committee will stand 
adjourned.
    [Additional submissions of Mr. Miller follows:]

                                      NAMES OF THE 29 MINERS WHO DIED AT THE UPPER BIG BRANCH MINE ON APRIL 5, 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                   Family member who
     First name          Last name        Age              Job title          Total experience     At UBB mine         testified         Relationship
--------------------------------------------------------------------------------------------------------------------------------------------------------
 1 Jason             Atkins            25         Roof Bolter Operator         3 Yrs 24 weeks           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 2 Carl              Acord             52         Roof Bolter Operator                >33 Yrs           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 3 Christopher       Bell, Sr          33         Longwall Utility                   36 weeks            8 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 4 Gregory           Brock             47         Electrician                          >5 Yrs             >5 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 5 Kenneth           Chapman           53         Roof Bolter Operator                >28 Yrs           24 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 6 Robert            Clark             41         ContinousMinerOperator              >11 Yrs           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 7 Charles T         Davis             51         Longwall Foreman                    >32 Yrs             >8 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 8 Cory              Davis             20         Underground Apprentice             20 weeks            8 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 9 Michael           Elswick           57         Beltman/Fireboss                     33 Yrs             3 days   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
10 William           Griffith          54         ContinousMinerOperator              >36 Yrs    16 Yrs 32 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
11 Steven            Harrah            40         Assistant Mine Foreman               >9 Yrs       1 Yr 4 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
12 Edward D          Jones             50         Assistant Mine Foreman               29 Yrs    13 Yrs 24 weeks   Alice Peters       Mother
                                                                                                                                      in Law
--------------------------------------------------------------------------------------------------------------------------------------------------------
13 Richard           Lane              45         Longwall Foreman                     >8 Yrs           36 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
14 William           Lynch             59         Shuttle Car Operator                >34 Yrs           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
15 Joe               Marcum            57         ContinousMinerOperator              >32 Yrs            >16 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
16 Nicholas          McCroskey         26         Electrician                          >3 Yrs      1 Yr 24 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
17 Ronald Lee        Maynor            31         Scoop Operator               3 Yrs 24 weeks     3 Yrs 24 weeks   Leo Long           Grandfather
--------------------------------------------------------------------------------------------------------------------------------------------------------
18 James             Mooney            51         Shuttle Car Operator           32Yrs24weeks            >10 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
19 Adam              Morgan            21         Underground Apprentice              8 weeks            8 weeks   Steve Morgan       Father & Uncle
                                                                                                                   Eddie Cook
--------------------------------------------------------------------------------------------------------------------------------------------------------
20 Rex               Mullins           50         Headgate Operator                   >20 Yrs     6 Yrs 40 weeks   Clay Mullins       Brother
--------------------------------------------------------------------------------------------------------------------------------------------------------
21 Joshua            Napper            26         Underground Apprentice              8 weeks            8 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
22 Howard            Payne, Jr         53         Roof Bolter Operator                >12 Yrs            >11 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
23 Dillard           Persinger         32         Shield Operator                      >2 Yrs             >2 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
24 Joel              Price             55         Shearer Operator                    >35 Yrs     2 Yrs 24 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
25 Gary W            Quarles           33         Shearer Operator                    >14 Yrs    12 Yrs 24 weeks   Gary Quarles       Father
--------------------------------------------------------------------------------------------------------------------------------------------------------
26 Deward            Scott             58         Shuttle Car Operator                >38 Yrs           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
27 Grover            Skeens            57         Maintenance Foreman                 >33 Yrs            >14 Yrs   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
28 Benny             Willingham        61         Roof Bolter Operator                >34 Yrs           44 weeks   .................  ..................
--------------------------------------------------------------------------------------------------------------------------------------------------------
29 Ricky             Workman           50         Shuttle Car Operator                 >9 Yrs             >8 Yrs   .................  ..................--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: MSHA's Preliminary Reports of Accident (Forms 7000-13) and information from the May 24, 2010 hearing (the names of the witnesses and their
  relationships to the miners).

                                 ______
                                 
                                        Secretary of Labor,
                                      Washington, DC, May 28, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Miller: I wanted to thank you again for allowing me 
to participate in the field hearing in Beckley last week on the Upper 
Big Branch Mine tragedy. I was so moved by the compelling testimony 
given by the family members of the victims and Mr. Stewart, the UBB 
miner. I will never forget listening to Steve Morgan testify about 
trying to convince his son Adam to quit his job at UBB just two weeks 
before the disaster. No parent should have to live with that kind of 
pain. I am so grateful to you for giving these families an opportunity 
to tell their stories.
    I also want to assure you that Assistant Secretary Joe Main and I 
listened carefully to the lessons that these family members and Mr. 
Stewart have to teach MSHA about how we can prevent disasters like UBB. 
Even before the hearing, MSHA has already:
    <bullet> adopted a new approach to inspections to ensure that our 
inspectors are getting a clear and accurate picture of conditions in 
the mines they inspect--not just the picture that the mine operators 
want to provide. MSHA is changing and varying the methods to predict 
the times and types of inspections that MSHA will perform;
    <bullet> taken bold action, like our recent blitz inspections, to 
make sure we are focusing our enforcement efforts on the mines that 
pose the greatest danger to miners' safety;
    <bullet> augmented our existing anonymous 1-800 tip line for miners 
to report hazards with a toll-free line specifically for anyone who has 
information related to the UBB disaster that they would like to 
communicate to MSHA anonymously; and,
    <bullet> coordinated with the state of West Virginia to coordinate 
our investigations and oversight. In addition, MSHA Assistant Secretary 
Main reached out to all the state mining agencies upon his confirmation 
to improve the working relationship and better coordinate safety and 
health activities. He arranged for the state mining agencies to meet 
with all the MSHA Coal District Managers to discuss increased 
cooperation. MSHA will also soon sign a new Memorandum of Understanding 
with the state agencies to improve and expand cooperation and 
coordination in ensuring that mine safety and health laws are followed 
and are effective.
    MSHA officials will be more than happy to meet with you and your 
staff to brief you on the details of these and other initiatives.
    The hearing made clear that we have a great deal of work ahead of 
us to ensure safe conditions for all miners. I look forward to working 
with you and the entire Committee as this process moves forward.
            Sincerely,
                                            Hilda L. Solis,
                                                Secretary of Labor.
                                 ______
                                 
    [Whereupon, at 11:54 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
